<html>
<title> - RAILROAD AND MARITIME SECURITY</title>
<body><pre>[Senate Hearing 107-1033]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1033

                     RAILROAD AND MARITIME SECURITY

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



89-457              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGIA ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                                 ------                                

       Subcommittee on Surface Transportation and Merchant Marine

                  JOHN B. BREAUX, Louisiana, Chairman
DANIEL K. INOUYE, Hawaii             GORDON SMITH, Oregon
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 2, 2001.....................................     1
Statement of Senator Boxer.......................................    20
Statement of Senator Breaux......................................     1
Statement of Senator Cleland.....................................    25
Statement of Senator Hollings....................................     3
Statement of Senator Hutchison...................................    30
Statement of Senator Inouye......................................    19
Statement of Senator Kerry.......................................     2
Statement of Senator Rockefeller.................................    14
Statement of Senator Smith.......................................    27
    Prepared statement...........................................    27
Statement of Senator Snowe.......................................    22

                               Witnesses

Cox, Joseph J., President, Chamber of Shipping of America........    41
    Prepared statement...........................................    43
Crye, J. Michael, President, International Council of Cruise 
  Lines..........................................................    37
    Prepared statement...........................................    38
Hamberger, Edward R., President & CEO, Association of American 
  Railroads......................................................    34
    Prepared statement...........................................    35
Underwood, Admiral James W., Director of the Office of 
  Intelligence and Security......................................     4
    Prepared statement...........................................     7
Warrington, George D., President & CEO, National Railroad 
  Passenger Corporation..........................................    30
    Prepared statement...........................................    32

                                Appendix

Welch, Edmund B., Legislative Director, Passenger Vessel 
  Association, prepared statement................................    57

 
                     RAILROAD AND MARITIME SECURITY

                              ----------                              


                        TUESDAY, OCTOBER 2, 2001

                                       U.S. Senate,
Subcommittee on Surface Transportation and Merchant Marine,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:15 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John B. 
Breaux, Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. JOHN BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The Subcommittee will please come to order. 
We thank all of our witnesses who will be appearing, and also 
our guests who are here this morning. We will be joined shortly 
by some of our Ranking Members on the Republican side who have 
a great interest in this matter as well.
    I have called the hearing this morning to focus on what is 
being done to maintain an increased security on our nation's 
railroads and also ships. What we are not doing is holding this 
hearing in any way to scare the public or overly alarm the 
public as to any potential risk. However, in the aftermath of 
the September 11 terrorist attacks we need to explore what 
steps our Government and also the private sector are taking and 
have taken to prevent future acts of terrorism and to explore 
what further steps can be taken in order to better protect the 
public.
    If any of our witnesses that we have appearing with us this 
morning feel that line of questioning in any way jeopardizes 
any aspects of security that do not need to be made public, I 
would certainly like for them to indicate so and to refrain 
from public comment.
    I also would like to announce hearings which we will be 
scheduling, have scheduled and have approved now on October 10 
at 9:30 in the morning for this Subcommittee to also look at 
the security of bus and truck operations in the United States. 
A great deal of attention, obviously, has been focused in the 
news on the transportation in particular of hazardous 
materials, much of which runs also by trucks, and that needs to 
be looked at, and we will be doing that on October 10.
    I will abbreviate the rest of my opening statement and just 
point out that about one-third of terrorist attacks around the 
world reportedly target transportation and transportation 
systems, so obviously this is an area that has to be given a 
great deal more security than perhaps we have done in the past.
    Securing the safety of passengers in these modes of 
transportation is a key goal that we all share. Amtrak, for 
example, provided passenger service for more than 22.5 million 
passengers just last year. Also, the question of cargo that is 
shipped both by rail and by ship is very essential to this 
nation's internal and national security, and needs to be 
considered.
    The United States has over 1,000 harbor channels, 25,000 
miles of inland intracoastal and coastal waterways which serve 
over 300 ports around this country, with more than 3,700 
terminals that handle both passenger as well as cargo movement. 
All of these, I think, today are being looked at with a great 
deal more security than perhaps they were before September 11. 
Most of our seaports, obviously are located in major urbanized 
areas, and obviously present in that sense special problems and 
special concerns.
    We do not bring up, as I said before, these issues lightly, 
but also we do not intend to infer that our transportation 
system, and particularly rail and passenger ships, are not 
secure and are not safe. The intent of the hearing is to find 
out what we have and are currently doing, and the prospects for 
additional and better security in the future.
    With that, do I have any comments from any of our 
colleagues? If not, we would like to welcome our first 
witness--excuse me, Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. I cannot stay that long. I wanted to make a 
couple of comments, if I can, just very quickly.
    First of all, I want to thank you for proceeding on this 
hearing. We had a discussion about this a couple of weeks ago, 
and I think it is critical look at these areas. An awful lot of 
people have commented that as we beef up our airports, which we 
need to do, there are clearly other pressure points where 
potential mischief becomes more attractive, and so we need to 
deal with that, but I wanted to just comment on a couple of 
things.
    For a long time now, some of us have been focused, through 
the narcotics trafficking, on the question of ports and port 
inspection and cooperation from foreign countries. There have 
been some discussions, I know, in Singapore recently about port 
security. The prime minister was here. One of the main topics 
of discussion was how we are going to look at things before 
they come into the United States, because of the difficulties 
of inspecting once packed containerized and so forth, and the 
obviously better place is their point of departure. I think, 
Admiral, we would welcome your comments and thoughts how we may 
engage in this new global effort to try to be smarter about 
inspecting.
    It is not just terrorism, it is also narcotics trafficking, 
and frankly evasion of other kind of market rules by which we 
are supposed to play.
    Mr. Chairman, we need to also recognize that, I think it 
was a fellow at the Foreign Relations Committee, Coast Guard 
Commander Flynn, who wrote an article in the New York Times 
last week about how trying to get some of this stuff is like 
trying to catch a minnow at the base of Niagara Falls, it is an 
extraordinarily difficult task, and in fact airline security is 
like Fort Knox compared to the security on trains and other 
modes of transportation today, so it is particularly important 
that we focus on how we make tunnels safe. What is the traffic 
situation going to be like on Amtrak? Amtrak, to our pleasure, 
has had an enormous ridership increase, 10 percent increase in 
the wake of the September 11 attacks on the Accela Express, 
which prior to September 11 was capturing about 42 percent of 
the New York-Washington business. Reservations are up 40 
percent, and as a result of this Amtrak has added 608 seats 
during the peak periods on the Northeast Corridor.
    But Mr. Chairman, it should not escape the notice of this 
Committee that Amtrak's ridership in the West is up 8 percent, 
and business on long haul trains is 15 percent greater than 
normal, and these figures indicate that passenger rail safety 
and security needs to be a priority for the members of this 
Committee, which is the vast majority of this Committee--the 
Northeast is not.
    Amtrak is seeking an additional $3 billion in funding for 
much-needed security and safety improvements, and I support 
that, and I hope we can get them that, but they need also to 
have additional concerns addressed by this Committee with 
respect to the other security issues.
    And finally, Mr. Chairman, I would like to thank the Coast 
Guard for their help in activating the 307th Port Security Unit 
at St. Petersburg and sending the 147-man unit to augment the 
security of Boston Harbor. That is one of only six reserve port 
security units nation-wide, and on 1 day's notice they got 
their Boston Whaler patrol boats hauled from Florida on flatbed 
trucks launched in Boston, available for 24-hour coverage, and 
that raises an issue of concern to us in Boston.
    There have been no weekly shipments of liquid national gas 
to Boston since September 11, and nearly 20 percent of the 
natural gas needs of New England and the Port of Boston come in 
via double-hulled tankers. We would not, if we chose to build a 
facility today, build it where it is, in Everett, near housing, 
but I think we can provide adequate security. I am grateful to 
the Coast Guard for the meetings we have had to do that. The 
Governor has said it is not a question of if they will come in, 
it is a question of when, and I want to commend the Coast Guard 
for their efforts in pulling together a broad coalition of 
people to help analyze the situation, to move forward on it, 
and we are very grateful to you for doing that.
    Thank you, Mr. Chairman.
    Senator Breaux. I would just comment on the Senator's 
statement. The LNG tanker that was going to Boston was actually 
diverted to Louisiana. It was, I think 33 million gallons of 
LNG that was for your area was diverted because of security 
questions.
    We have been joined by our distinguished chairman of the 
full Committee, if he has any comments.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. Well, the cylinders for that natural gas 
containment, bringing them out of Algeria, are manufactured by 
General Dynamics in Charleston, in the port there, and we would 
be glad to send you both as many as you wish.
    Mr. Chairman, thank you very much for this hearing. It is 
important for many reasons, but let us get just one comment 
about security.
    I am glad to see the hearing led off by Admiral Underwood, 
which in addition to airport security we have got railroad 
security, the tunnels, and Grand Central Station, and in 
addition, as Senator Kerry has just mentioned, the ports bill 
that we have got out on the floor, and the bill right now for 
airport security contemplates a Deputy Secretary of 
Transportation in charge of security, that he will have all of 
these responsibilities, that it must be professionalized, and 
that is enough said.
    Thank you very much.
    Senator Breaux. Thank you very much, Mr. Chairman, and with 
that we would like to welcome our first witness, who is Admiral 
James Underwood, who is Director of the Office of Intelligence 
and Security with the Department of Transportation.
    Admiral we have your testimony. If you would like to 
summarize, we would proceed to questions.

           STATEMENT OF ADMIRAL JAMES W. UNDERWOOD, 
      DIRECTOR OF THE OFFICE OF INTELLIGENCE AND SECURITY

    Admiral Underwood. Thank you, Chairman Breaux, Chairman 
Hollings. Thank you for the opportunity to appear before you on 
the critical topic and area of concern for our entire nation.
    First, I want to express and extend my deepest sympathy to 
the families of the victims of the tragedies of September 11, a 
day that marked a change in the comfort and confidence of our 
American citizens in our security and safety.
    While aviation was clearly the immediate focus for 
everyone, we realize there is a broader threat to our critical 
assets and our population. We must now reexamine some of our 
basic security assumptions and address potential threats. On 
September 11, Secretary Mineta acted quickly and decisively. In 
response to the unprecedented attacks, the Secretary shut down 
the entire United States air space for all civil aviation. The 
Federal Aviation Administration has been slowly bringing the 
civil aviation system back in studied increments.
    As you know, before the Secretary allowed our airports to 
reopen, and air carriers to resume operations, airports and air 
carriers had to meet stringent new security measures. As 
President Bush has articulated, at all airports increased 
numbers of uniform and plain clothes security, law enforcement 
officers and canine officer teams have been deployed to provide 
greater deterrence, surveillance, and response in the case of 
an emergency.
    Access points to secured areas of airports have been 
reduced to the operational minimum, and airports have increased 
random security checks and ID checks through their entire 
terminal areas. We will continue to work to improve technology, 
the workforce, industry vigilance, and our own awareness of 
possible new access issues.
    This brings me to today's topic. Secretary Mineta has been 
adamant that aviation is not the only key transportation asset 
of the United States, and that we must work now to protect the 
critical infrastructure elements of our railways, roads, 
transit systems, pipelines, and waterways. Much has been done, 
with some restrictions and precautions starting the very day of 
the attack. To date, most have been voluntary, or coordinated 
action taken under local and state authority. The private 
sector has been largely responsible for assuring its own 
infrastructure and business security practices. We have 
developed a trusted partnership with the transportation 
industry and state and local authorities that transcends 
economics and politics, and acknowledges that our ultimate goal 
is to protect our country, its people, and our freedom.
    In light of September 11, we must consider how to assure 
the long-term consistency and sustainability of these security 
measures. To that end, on September 17, Secretary Mineta 
created the National Infrastructure Security Committee at the 
Department of Transportation to focus on intermodal 
transportation security issues in the new threat environment. 
This Committee is in the process of identifying high-value, 
high-consequence transportation assets and current protection 
strategies, developing a set of national standards that address 
a prudent level of protection for our most critical 
transportation assets, and identifying and addressing the 
strategic gaps between the current and desired level of 
protection for the most critical of these assets. Secretary 
Mineta also formed two rapid response teams on airport and 
aircraft security, and is currently weighing their 
recommendations.
    On September 24, Secretary Mineta established a Maritime 
Direct Action Group to evaluate the need for enhanced port 
security measures, and we appreciate this Committee's 
recognition of the importance of this effort. Formation of this 
action group builds on the United States Coast Guard efforts 
with homeland security and maritime domain awareness. The 
coordination and responsiveness by the transportation community 
and the initiation and implementation of additional measures 
have been exemplary during the past 3 weeks. Let me offer a 
snapshot of the activities within the Department's operating 
administrations that have occurred since September 11, starting 
with railroads.
    FRA has been coordinating with freight, intercity 
passenger, and commuter railroads and industry groups such as 
rail labor organizations, the Association of American 
Railroads, the American Shortline and Regional Railroad 
Association, and the American Public Transportation Association 
to review current security programs in light of the recent 
terrorist threats to determine whether enhanced security 
measures may be needed to maintain the security of the railroad 
industry.
    The freight railroad industry has established a task force 
to study security threats to their physical assets, train 
operations, information technology systems, hazardous material 
transportation, and national security shipments.
    Individual rail companies already increased inspections and 
surveillance at sensitive locations such as tunnels bridges, 
interlockings, and terminals. Amtrak and the commuter railroads 
have taken immediate measures to enhance security at stations 
and at critical points on their routes, and APTA has 
established a special passenger security task force to examine 
issues unique to their needs, and to determine the need for 
further improvements.
    The Federal Highway Administration has increased efforts to 
heighten security and surveillance of critical highway 
infrastructure elements, including vital connectors to our 
ports, railroads, and military bases. The Federal Motor Carrier 
Safety Administration is taking swift action to ensure that 
hazardous materials in the transportation system cannot be used 
as a potential weapon by terrorists.
    Over-the-road bus companies and other commercial passenger 
carriers are cooperating with the federal motor carriers to 
heighten security, reviewing baggage checks and ticketing 
passengers, consulting security professionals, and as much as 
possible avoiding locations that might pose security risks to 
passengers.
    The Federal Transit Administration is providing assistance 
to help improve the preparedness level of transit agencies 
across the country, and in order to improve pipeline security, 
the Research and Special Programs Administration immediately 
issued threat advisories to pipeline companies, and continues 
to review security measures of major pipeline companies working 
with the department's state regulatory counterparts.
    Contingency response plans are being outlined at all levels 
for all modes of transportation. Let me assure you that we are 
continuing to identify critical transportation assets, and 
define potential or current countermeasures and assurance 
measures to protect them.
    America's waterways, like air transportation, are a key 
element of the critical transportation infrastructure. The 
United States Coast Guard acted promptly to ensure the security 
of the waterways, exercising its full authority to identify, 
examine, and control ships and watercraft in and near critical 
assets and populated areas. Since September 11, Coast Guard 
boarding officers and support personnel in the major ports have 
been inspecting commercial vessels arriving in the United 
States to ensure that their purpose is legitimate and their 
cargoes are safe.
    In New York Harbor and elsewhere, crews have been working 
12-hour shifts 7 days a week to establish and enforce security 
zones, while making sure commerce continues to flow. They are 
working together as a seamless force of active duty, reserve, 
civilian, and auxiliary members. In fact, over 2,700 Coast 
Guard reservists have been called up to active duty to augment 
our forces and to enable the deployment of the port security 
units Senator Kerry referred to. Major Coast Guard cutters have 
been positioned in the approaches of all our major ports, while 
Coast Guard aircraft perform flights for logistics and patrol 
duties.
    Employment of these assets in homeland security is a superb 
example of the Coast Guard's multimission agility. In this 
case, pulling resources from its fisheries enforcement, aids to 
navigation, drug and migrant interdiction missions without 
diminishing its traditional search and rescue responsibilities.
    We must now rigorously test the effectiveness of the 
established and newly implemented security procedures across 
all modes. We must also enhance our efforts at physical 
security vulnerability assessments. Our capabilities to make 
these assessments are not consistent across all modes, and we 
are working on plans to address this disparity. We must examine 
the security measures implemented with confidence in the 
aviation industry, and move to attain comparable levels of 
security competence in the other modes in all areas, such as 
employee verification, access control, awareness, inspection, 
and protection.
    Last, I want to address the issue of commitment. I am proud 
of the commitment of the workers of all of the operating modes 
of the Department of Transportation in addressing this clear 
and present danger. In addition, I applaud the commitment of 
the transportation community to identify their own 
vulnerabilities, address them, and work with Government to go 
the next step and achieve what Secretary Mineta has called a 
new normalcy.
    Thank you for this opportunity to present my thoughts 
before you. I welcome your comments and questions.
    [The prepared statement of Admiral Underwood follows:]

           Prepared Statement of Admiral James W. Underwood, 
          Director of the Office of Intelligence and Security

    Thank you for the opportunity to appear before you on this critical 
topic and area of concern for our entire nation. I want to express my 
deepest sympathy to the families of the victims of the tragedy of 
September 11, a day that marked a change in the comfort and confidence 
our American citizens have in their security and safety. While aviation 
was clearly the immediate focus for everyone, including the Department 
of Transportation and national security offices, we realize there is a 
broader threat to our critical assets and our population. The 
possibilities we now face are driven by the deliberate attack on our 
society that most could not have imagined prior to September 11. We 
must now reexamine some of our basic security assumptions and address 
potential threats.
    I am here to report, first: with confidence that we have been doing 
just that for transportation, second: with some concern that it is not 
yet enough in all areas, and third: with commitment that we will 
continue to identify all vulnerabilities and address them.
    On September 11, Secretary Mineta acted quickly and decisively. In 
response to the unprecedented attacks, the Secretary shut down the 
entire United States airspace for all civil operations. The Federal 
Aviation Administration (FAA) has been slowly bringing the civil 
aviation system back up in studied increments. As you know, before the 
Secretary allowed our airports to reopen and air carriers to resume 
operations, airports and air carriers had to meet stringent new 
security measures through a certification process. I must tell you that 
we have had an unprecedented level of cooperation between the Federal 
Government and airport operators and air carriers to implement these 
procedures so quickly and effectively. Also, we have been working and 
will continue to work closely with the intelligence community and all 
components of the aviation industry to identify and address other 
possible threats. For example, we grounded crop dusters until we could 
be certain that measures were in place to address their potential use 
as a means of distributing chemical or biological agents on a populated 
area.
    As President Bush has articulated, at all airports, increased 
numbers of uniformed and plainclothes security, law enforcement 
officers, and canine officers have been deployed to provide greater 
deterrence, surveillance, and response in the case of an emergency. 
Access points to secured areas of airports have been reduced to the 
operational minimum, and airports have increased random security checks 
and ID checks throughout their entire terminal areas. All cutting 
instruments, including knives, box cutters, scissors, and straight-
edged razors, are banned from carry-on luggage and may no longer be 
sold in ``sterile'' terminal areas--those areas beyond the security 
checkpoints. We have increased the number of Federal Air Marshals 
flying on select flights and we will continue to expand that program. 
We will continue to work to improve technology, the workforce, industry 
vigilance, and our own awareness of possible new access issues.
    This brings me to today's topic. Secretary Mineta has been adamant 
that aviation is not the only key transportation asset of the United 
States and we must work now to protect the critical infrastructure 
elements of our railways, roads, transit systems, pipelines, and 
waterways. Just yesterday, Secretary Mineta traveled safely to 
Philadelphia by train. Much has been done, with some restrictions and 
precautions starting the day of the attack. To date, most have been 
voluntary or coordinated as action taken under state and local 
authority. The private sector has been largely responsible for assuring 
its own infrastructure and business security practices. We have 
developed a trusted partnership with the transportation industry and 
state and local authorities that transcends economics and politics and 
acknowledges that our ultimate goal is to protect our country, its 
people and our freedom. In light of September 11, we must consider how 
to ensure the long-term consistency and sustainability of these 
security measures.
    To that end, on September 17, Secretary Mineta created the National 
Infrastructure Security Committee (NISC) to focus on intermodal 
transportation security issues in the ``new'' threat environment. NISC 
is in the process of identifying high-value, high-consequence 
transportation assets and current protection strategies; developing a 
set of national standards that address a prudent level of protection 
for our most critical transportation assets; and identifying and 
addressing the strategic gaps between the current and desired level of 
protection for the most critical of these assets. Secretary Mineta also 
formed two Rapid Response Teams on Airport and Aircraft Security, and 
is weighing their recommendations. On September 24, Secretary Mineta 
established a Maritime Direct Action Group (MDAG), to evaluate the need 
for enhanced port security measures. We appreciate this Committee's 
recognition of the importance of this effort. Formation of the MDAG 
builds on the United States Coast Guard's efforts with Homeland 
Security and Maritime Domain Awareness.
    Because of the recognized need for heightened security, 
coordination and responsiveness by private industry in the initiation 
and implementation of additional measures have been exemplary the past 
3 weeks. We have been working on identifying and promulgating best 
practices across all modes. The Federal Railroad Administration (FRA) 
plays a liaison role between the Department's security office and the 
railroad industry. FRA's broad safety authority and expertise in 
railroad safety and operational issues give it a significant role to 
play in helping to analyze and address security threats in the rail 
mode. Since September 11, FRA has been coordinating with freight, 
intercity passenger, and commuter railroads and industry groups, such 
as rail labor organizations, the Association of American Railroads, the 
American Short Line and Regional Railroad Association, and the American 
Public Transportation Association (APTA), to review current security 
programs in light of the recent terrorist threats to determine whether 
enhanced security measures may be needed to maintain the security of 
the railroad industry. The freight railroad industry has established 
task forces to study security threats to their physical assets, train 
operations, information technology systems, hazardous materials 
transportation, and national security shipments. Individual rail 
companies have already increased inspections and surveillance at 
sensitive locations such as tunnels, bridges, interlockings, and 
terminals. Amtrak and the commuter railroads have taken immediate 
measures to enhance security at stations and at critical points on 
their routes, and APTA has established a special passenger security 
task force to examine issues unique to their needs and to determine the 
need for further improvements.
    The Federal Highway Administration (FHWA) has increased efforts to 
heighten security and surveillance of critical highway infrastructure 
elements, including vital connectors to our ports, railroads, and 
military bases. An Emergency Preparedness and Response Team will 
identify areas of potential vulnerability and operational concerns. 
This team is examining such issues as vehicle size and weight limits, 
intermodal coordination, and coordination with the Military Traffic 
Management Command (MTMC). FHWA Division offices are currently working 
with state and local DOTs to assess risks to critical infrastructure 
and countermeasures. Over the next 2 weeks, recommendations will be 
made to the field offices for initiatives to maintain the flow of 
commerce, protect and restore critical facilities, and monitor the 
movement of hazardous materials. Division offices will work with state 
DOTs on implementation of an appropriate public notification system, 
such as the New York City DOT website which updates the closed/open 
status of all transportation activities--roads, bridges, tunnels, 
transit, ferries--on one website. The Team will also be identifying 
technology solutions for priority movement of military and emergency 
resources, as well as public notification.
    The Federal Motor Carrier Safety Administration (FMCSA) is taking 
swift action to ensure that hazardous materials in the transportation 
system cannot be used as a potential weapon by terrorists. FMCSA's 
field staff in every jurisdiction are making security visits to 
trucking companies that transport hazardous materials to urge 
heightened vigilance and the creation of security plans. Companies are 
being asked to carefully look for potential vulnerabilities in every 
aspect of their operations--from package control to en-route protection 
to communications--and to devise ways to strengthen safety. Particular 
stress is given to conducting thorough background checks on drivers and 
being alert for suspicious behavior from drivers, shippers, consignees 
or the public. Trucking associations and hazardous materials transport 
associations are helping out by contacting their members and passing on 
suggestions for improving security measures.
    Our partners in state safety enforcement have joined the effort by 
giving greater priority to hazardous materials enforcement at the 
roadside and stepping up driver inspections and license verification 
for hazardous materials carriers.
    FMCSA has been cooperating closely with the Federal Bureau of 
Investigation and other law enforcement agencies to check on drivers 
who hold licenses to transport hazardous materials. In the past 2 
years, the FMCSA has dramatically increased its scrutiny of state 
licensing agencies to root out corruption in commercial licensing.
    Over-the-road bus companies and other commercial passenger carriers 
are cooperating with FMCSA to heighten security, reviewing baggage 
checks and ticketing procedures, consulting security professionals, 
and, as much as possible, avoiding locations that might pose security 
risks to passengers.
    The Federal Transit Administration is providing assistance to help 
improve the preparedness level of transit agencies across the country.
    Contingency response plans are being outlined at all levels for all 
modes of transportation. Let me assure you that we are continuing to 
identify critical transportation assets and define potential or current 
countermeasures and assurance measures to protect them.
    America's waterways, like air transportation, are a key element of 
the critical transportation infrastructure. Considering that 95 percent 
of all overseas products move through seaports, the Department of 
Transportation is especially interested in detecting cargo and people 
that may arrive aboard ships having the intent to harm the United 
States. Equally important, we are working hard to identify persons 
operating clandestinely on the water, with the intent of protecting 
ports from disruption and damage. We are working cooperatively with 
other federal agencies and maritime industry groups to share 
information and resources for a common purpose.
    In order to improve pipeline security, the Research and Special 
Programs Administration immediately issued threat advisories to 
pipeline companies, continues to review the security measures of major 
pipeline companies, and is working with the department's state 
regulatory counterparts to relay security advice to intrastate pipeline 
companies.
    We must now rigorously test the effectiveness of the established 
and newly implemented security procedures across all modes. We must 
also enhance our efforts in physical security vulnerability 
assessments. Our capabilities to make these assessments are not 
consistent across all modes, and we are working on plans to address 
this disparity. We must examine the security measures implemented with 
confidence in the aviation industry and move to attain comparable 
levels of security and confidence in the other modes in all areas, such 
as employee verification, access control, awareness, inspection and 
protection.
    We are examining how we can initiate and require measures to 
protect all transportation assets nationwide, and protect sensitive 
security information across all modes. This specific authority is now 
available to the FAA and the Coast Guard but not to the Secretary of 
Transportation or other modal administrators. Voluntary measures will 
not provide the systematic and ongoing security level the Department 
seeks and the United States requires.
    Lastly, I want to address the issue of commitment. I am proud of 
the commitment of the workers of all of the operating modes of the 
Department of Transportation in addressing this clear and present 
danger. For example, the Department's Crisis Management Center was 
immediately operational at 9 a.m. on September 11, and was operated 
around the clock by employees, including many volunteers, from 
virtually every DOT agency. In addition, I applaud the commitment of 
the transportation community to identify their own vulnerabilities, 
address them, and work with the Government to go the next step and 
achieve what Secretary Mineta has called a ``new normalcy.''
    Thank you for this opportunity to present my thoughts before you. I 
welcome your comments and questions.

    Senator Breaux. Thank you very much, Admiral Underwood. 
Thank you for your statement, and also thank you for the things 
that have been going on within the Department of Transportation 
with regard to new things, and procedures that have been put in 
place.
    When we were preparing for the hearing and talking with the 
staff, I set out an analogy, or a possibility that I think 
highlighted the potential for problems with regard to the rail 
passenger system in this country. I pointed out that under the 
old system, that I or someone who wanted to do grave damage to 
the passenger system could take a suitcase, load it with 
explosives, and roll it over to Union Station, where I would 
buy a ticket on an automatic ticket machine, and then roll that 
suitcase onto a passenger train and set my case right behind 
the engine, perhaps, and then walk right off the other side of 
the train, and the train leaves, and the horrible, inevitable 
would happen. What, if anything, from a procedural standpoint 
has now been set up that would prevent that, or likely prevent 
that from happening?
    Admiral Underwood. Mr. Chairman, since September 11 the 
Amtrak police force has stepped up their patrols. They are now 
working 24 hours, 7 days a week, 12 on and 12 off shifts. They 
have increased the amount of security in the stations, in the 
major stations. They are checking passenger ID's at the point 
of issuing tickets. They are requiring a photo identification 
at that point.
    Senator Breaux. Suppose you buy your ticket on an automatic 
ticket machine. Can you still do that?
    Admiral Underwood. They will check the identification on 
the train.
    Senator Breaux. Do you have a passenger manifest list of 
the passengers riding?
    Admiral Underwood. They do not have a passenger manifest of 
the people that are riding. However, they do have a list of the 
people we are looking for, and are checking that photo ID 
against that list. This is the list we have been provided by 
the FBI that we have also shared with the other modes of 
transportation.
    Senator Breaux. Is there any thinking in terms of baggage 
inspection on passenger trains, or is that something that has 
been considered, and what are the parameters?
    Admiral Underwood. That is one of the items we are still 
considering.
    Senator Breaux. Can you elaborate about the pros and cons? 
What are people saying of what should be done and what should 
not be done?
    Admiral Underwood. As you know, our rail system, a very 
important piece of the transportation system, does have a much 
different--it is not analogous to an airport. It does not have 
the same security checkpoints. The access to the airport is 
much more controlled than it is to a rail station, and so there 
are a lot of difficulties in putting something like that in 
place. There are a lot of stations in our country that are 
not--that passengers can still get on-board trains.
    Senator Breaux. Can we to any degree of certainty guarantee 
the safety of a rail passenger system without preinspecting 
luggage that is brought onto trains?
    Admiral Underwood. I think the steps that the Amtrak chief 
of police has implemented since September 11 are a dramatic 
increase in the level of security that we are providing to the 
rail passenger industry. The same steps are being mirrored in 
the commuter rail by the local----
    Senator Breaux. You do not envision any requirement or move 
towards inspection of carry-on baggage on passenger trains?
    Admiral Underwood. Sir, I think that is still one of the 
items that is under consideration.
    Senator Breaux. Just from a timing standpoint, do you think 
you are going to have a decision on that in the near future, or 
what?
    Admiral Underwood. I do not have a sense of the timing on 
that, Senator.
    Senator Breaux. Let me ask a question about the subject 
matter that Senator Kerry brought up, with the LNG, dealing 
with the ports. There are a lot of other questions I want to 
get into on passenger ships as well, but liquified natural gas, 
a tanker that was going into Boston Harbor was diverted from 
Boston Harbor, eventually I guess was sent to Lake Charles. Can 
you elaborate on that, and is that what happened, and if so, 
what made Lake Charles a secure port and Boston an insecure 
port?
    Admiral Underwood. My understanding is that the tanker 
MATTHEWS is the one that was diverted from Boston, and that it 
is mooring in Savannah, Georgia today.
    Senator Breaux. It did not go to Louisiana?
    Admiral Underwood. It did not go to Louisiana.
    Senator Breaux. What made Savannah a safe port and Boston 
an unsafe port?
    Admiral Underwood. Savannah had the security apparatus in 
port set up and ready to receive the LNG tanker. There was some 
concern that in Everett that security force was not capable at 
that point to receive it. There are, as were mentioned, some 
broad meetings going on across agencies, and with the 
communities that Admiral Nacarra is putting together in the 
First Coast Guard District to address improved and enhanced 
security.
    Senator Breaux. Let me ask about the general nature of the 
security from the Department of Transportation, and this will 
be my last question about particularly the railroad security. 
You are an Admiral with a distinguished career in the Coast 
Guard, but I take it now that you are also overseeing security 
for railroads, which is certainly a whole different area.
    The Federal Railroad Administration I take it has 
responsibility for safety but not security. I am not sure what 
the difference is there. How is this structure going to work? 
Are you going to be overall responsible for security as well as 
safety? We are going to have people stumbling over each other 
if we do not get the procedure straight, and a working 
framework about how this is to be handled from the question of 
ship passenger security, rail security, both for passengers and 
cargo. How is all of this going to work? Are we going to be 
stumbling over each other? What are we going to do?
    Admiral Underwood. In the National Infrastructure Security 
Committee that Secretary Mineta has formed those are exactly 
the kind of issues that are being addressed and being brought 
to the table so that we can examine that and determine what 
that recommended structure would be.
    With respect to my being a Coast Guard Admiral and suddenly 
being a security expert on the railroads, I can assure you I 
have had a lot of help from the railroad industry, getting to 
the point that I am as knowledgeable, as limited as that might 
be, but that the railroad police have a fine organization, and 
they work very closely with the International Association of 
Chiefs of Police in developing what those right security 
measures are.
    Senator Breaux. But am I correct in that railroad security 
in the past has pretty much been left up to the private sector, 
the owners and operators of the transportation system?
    Admiral Underwood. Yes, you are correct.
    Senator Breaux. Senator Hollings.
    The Chairman. Well, tell them, please, they have got to get 
on the ball, start moving and not wait for all of this 
planning, let us go to airline security, Admiral. Of course, 
you were not involved in this, but right after this occurred on 
9/11 I gave the Secretary Mineta over a week's notice of a 
hearing that we were going to have, suggested at the time, to 
secure those doors, and I have yet to see it--you talk about 
rapid response.
    Once you get a secure door like they have at El Al, whether 
it is steel or Kevlar or whatever else--and they have got 
doors. If I ran an airline I would not dare want to fly any 
more airplanes unless I had a secure door, and once the door is 
made secure, and never to be opened in flight, that in reality 
more or less stops all of this airline takeover and using 
domestic flight for a weapon of mass destruction.
    If you know that you cannot get into the cockpit, you can 
start cutting some people up or start a fight back in the 
passenger cabin, but once that starts the plane will be landed 
and the FBI will be waiting, so--you can start a fight in this 
room if you want to, if I am a terrorist or whatever, but 
somehow, somewhere they have all studied it, and they said 
rapid response. Tell that crowd they are not rapid, and they 
are not responding.
    Once you get that door secure at Reagan Nation, that ends 
it. There is no difference between Reagan National and Dulles. 
You cannot--will the pilot guide the plane into the White 
House? That is done. That problem is solved. You have got to 
check your pilots, they are checked now. They have got all good 
records. Tell them, let us get going.
    On rail security, let us assume I am a terrorist and I want 
not to blow up anybody, nor get to the tunnel or anything else. 
All I would have to do is take a crowbar, and work at the dark 
of night to really twist that rail around, undo the pins and so 
forth like that, and derail it. How do you stop that?
    Admiral Underwood. We have in the rail industry they have 
examiners that go out and look at the track on a regular basis, 
and the one night, overnight, I would defer that question to 
the next panel.
    The Chairman. We have to figure out some way, and I know 
they have electronic signals and everything else of that kind.
    Admiral Underwood. Well, if the track is not in place we 
could tell.
    The Chairman. You could tell if the track is not in place?
    Admiral Underwood. If it is broken, yes, they could tell.
    The Chairman. They could tell that immediately at some 
central point?
    Admiral Underwood. They have the capability of doing that.
    The Chairman. Well, good. That educates me. That is why I 
am asking, to try to find out, because everybody is talking 
about the tunnels, but I want to derail a train before it gets 
in the tunnel or whatever it is, or before it goes across the 
pass, or the river, or whatever else.
    Admiral Underwood. Without going into a lot of details, 
that can be overridden.
    The Chairman. That can be overridden?
    Admiral Underwood. By somebody who understands the system, 
so there is a need for stronger legislation, criminal 
legislation against people that would do that, would wreck 
these trains, and I think the FRA has proposed some legislation 
on a number of occasions.
    The Chairman. On the maritime, Admiral, we have been 
working at the Committee level and have the bill reported for 
port security, and we found out that the Customs said, oh no, 
the Coast Guard was in charge. The Coast Guard said, oh, no, 
the DEA checks that, and the DEA said no, the Port of Bayonne, 
New Jersey checks that, and everybody was putting it off onto 
the next one.
    Under the law, the Captain of the Port--now, this is 
something you know about--is the responsible officer, is that 
not correct?
    Admiral Underwood. That is correct.
    The Chairman. And have you have any difficulty in this 
coordination, because I take it you folks are moving, not just 
waiting on legislation to secure the ports.
    Admiral Underwood. There has been nothing but absolute 
cooperation with all of our fellow Government agencies and 
industry in the wake of September 11.
    The Chairman. When you say absolute cooperation, how about 
security checks for the personal working the port?
    Admiral Underwood. Enhanced security across the port. Now, 
the Coast Guard has not taken on the personnel security for the 
people on the land side.
    The Chairman. Who takes that on?
    Admiral Underwood. I don't have that answer.
    The Chairman. Well, I think if you have got the overall 
security, you had better fix it, and we have got to know that, 
Admiral, because that is one of the hangups, I think.
    Senator Breaux. You do not know who does security at the 
ports?
    Admiral Underwood. On the land side?
    Senator Breaux. You do not know who does that?
    The Chairman. You get the land side, the Coast Guard and 
the Customs----
    Senator Breaux. I am astounded you do not know the answer 
to this question.
    The Chairman. This dance has been going on for years. That 
is why I asked the question. I am trying to get a fix--you 
know, life has changed after 9/11, and you folks have got to 
get together and lead, and not keep appointing committees and 
plans. I think the captain of the port under the law he has got 
that authority, therefore he has got that responsibility, and 
you have got to require it on the land side. The captain of the 
port is not out in the water, he is land side.
    Thank you, Admiral.
    Senator Breaux. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I want to 
pick up a little bit where Chairman Hollings left off on 
railroads, and the whole question of private action. I am 
having it checked out now so that what I say--I feel about 95 
percent sure about it, but I am not 100 percent sure, but I 
know that I was told by somebody that does not mislead me that 
on the airline situation, that Boeing said right after 
September 11 that yes, we could do those doors on all of our 
new airplanes, but we cannot do them on the ones that exist. It 
is too expensive. It takes too much time.
    Now, I say that not to say anything about Boeing, which 
makes great aircraft, but to say that when you rely on the 
private sector to do something and it goes right up against 
their bottom line, whether subsidized by the Government or not, 
I get nervous. It strikes me that railroads are far more 
vulnerable in many ways than are airplanes, and it has been 
fascinating to me to watch this nation come to grips with how 
it is that we make airlines more secure, and we are going to do 
that under Chairman Hollings' leadership this week, at the end 
of this week, but I just--when you say, we are working with 
them and we are going to follow their lead, or they are going 
to do it, I just want to go on record that makes me very 
nervous.
    Second is that the whole concept of interaction between 
agencies. The two classic agencies that do not interact are the 
two on security measures which ought to interact the best, and 
that is the Central Intelligence Agency and the FBI. There is a 
long history there. It does not need to be gone into, but the 
point is, you know, September 11 would not have not happened if 
they had been cooperating. It would have happened anyway 
because of the nature of the very simplistic approach that the 
terrorists took, but when people talk about cooperating, I also 
get nervous.
    Now, that is not fair 2 weeks out from the event. It is not 
fair to you. People have to sort of grope around because there 
is--it is like when Rumsfeld was trying to take on the Joint 
Chiefs of Staff and he lost. I mean, maybe he is winning now 
because of September 11, but they overrode him, because people 
do not want to cooperate. Everything is turf.
    You get into DOT, DEA, all kinds of other places, it does 
not change, and so I guess my first question to you is, why do 
you have confidence, other than simply the saying of it, that 
aggressive, dynamic, specific plans are beginning to be made? I 
do not ask that the plan be here by this time--it would be too 
early to be good planning--but that the instinct to get 
together and roll up the shirtsleeves and forget all about 
territory, how do you have confidence that is active in the 
Department of Transportation as it relates to other agencies?
    Admiral Underwood. With respect to other agencies, Senator, 
or with respect to the industry?
    Senator Rockefeller. Other agencies is my question.
    Admiral Underwood. I have confidence because even before 
September 11 we were working closely with the other agencies 
that would have a very significant use of what we are currently 
doing, and subsequent to that time, the efforts that have been 
redoubled, the amount of communication, the active working on 
work groups and task forces that are looking at those very 
specific issues is taking place.
    The plans are being made, definitions and common 
understandings across agencies, and within industry, so that we 
understand when we are at various levels of threat and how to 
communicate those levels of threat across the agencies and with 
industry, I am very confident that what we have, the makings of 
now is much more robust than what we had before, and we are 
working in that direction.
    Senator Rockefeller. Let me make my point a different way. 
It is hard for me to buy into that answer, with all due respect 
to you.
    When Sam Nunn and Jim Woolsey testified on Dark Winter, and 
they took a country that was hit by chemical, nerve, 
biological--various scenarios, and Nunn becomes president, and 
then they do this through with computers in war rooms and the 
whole thing, and it turns out to be an absolute disaster, 
showing that the public health--nobody is prepared. Absolutely 
nobody is prepared for any of this.
    And from that comes a suggestion that it really ought to be 
done by states. Each Governor in a state ought to have a 
pretend, so to speak, biological, nerve, you know, other type 
of disaster to find out if states themselves have any idea how 
to handle this, but more importantly to alert people so that 
the so-called interagency planning process, which I do not 
think the American people have a lot of confidence in. This 
Senator does not at this point--at this point--and so that the 
American people are aware of what the stakes are here.
    Again, when Chairman Breaux talked about checking baggage, 
is there anything more than that? Well, not for the moment. We 
are thinking about that. That is incredible. I mean, why would 
not one check baggage going onto a train, if one checks it 
going onto an airline, why would that be a matter of 
discussion, and I can think of a couple of good reasons. One is 
resources, and other sorts of things, but it seems to me that 
is what you ought to be telling us, not that we are not sure if 
it is a good idea or not. You know it is a good idea.
    And those are just two forms of public transportation, 
railroads and airlines, and there is so much more, but that is 
what you ought to be telling us, and then telling us, it seems 
to me, that yeah, we think it is a good idea, but we cannot 
afford to do it, or we think it is a good idea but we do not 
have the legislative authority to do this.
    You talk about criminal penalties. We are talking about 
security legislation here. What do you need from us? And this 
is kind of the emphasis that I would like to make in my 
comments to you, and you can respond if you would like.
    Admiral Underwood. I understand, and I will take that back 
to the Secretary. Yes, sir, absolutely, those are the things we 
are looking at.
    Senator Rockefeller. I was asking for your own response.
    Admiral Underwood. Senator, my response is that with 
concern to all of those areas in the national transportation 
security, the need to be elevated to find that new normalcy 
that the Secretary is referring to, we need to examine across 
the board and to come up with the solutions, and understand 
what those are.
    I am not sure that just piecemeal, or finding one that we 
think is the right one in a particular area to approach, and 
then saying that is where we are going to throw all the 
resources to handle that, without looking at the entire fabric 
of our transportation system--because it is so intermodally 
linked, and because there are so many pieces to it that require 
that same level of attention.
    Senator Rockefeller. Well, I certainly agree with that.
    Senator Breaux. Your time has expired. We are going to go 
in the order of appearance. Senator Kerry is next, followed by 
Senators Inouye, Boxer, and Snowe. Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman.
    Admiral you are here testifying on behalf of the Department 
of Transportation, and you acknowledge that you have had to 
sort of build the expertise with respect to some of the service 
components of that, but I am very concerned that the rhetoric 
of the last weeks is far outstripping the response. War 
footing, war against terrorism--on Sunday, Attorney General 
Ashcroft delivered a fairly sober warning, and I know many 
people in many parts of the country called me. In Massachusetts 
I heard from people, what is the threat tomorrow, what is the 
level, what should we be doing.
    I am very wary of outpacing the response by the rhetoric, 
and I am particularly weary of sowing the seeds of any kind of 
panic or alarm that are not merited, and I feel to some degree 
there is a contradiction here a little bit. If a train--I mean, 
a train has so many capacities to be used as a terrorist tool. 
I assume you could hijack it, conceivably, in which case you 
want to run it into something, or you might have people 
prearranged to help move a switch and target something 
conceivably, another train coming, who knows. Or, as Senator 
Breaux said, you take high explosives on in some bag that has 
not been inspected in a high volume station, or somewhere, and 
it blows up. There are not too many other ways in which one 
could script a scenario for a valuable terrorist tool in that 
context, but it seems to me the answers that we have been given 
is that neither of those scenarios are at this point adequately 
protected against.
    Admiral Underwood. If I could address the first scenario, I 
think that my conversations and understanding of the system is 
such that is not a likely scenario. Although there are 220,000 
miles of trackline across the United States, these tracks are 
controlled by the rails, and that the trains on those tracks 
are under the control of operating centers, so that they can 
tell when a track has been tampered with in most cases and 
divert trains around that situation. They can stop trains, they 
can reroute trains.
    Senator Kerry. Stop a train that is under their control, 
but they cannot stop a train that is not under their control 
without diverting it into something else, so it would stop 
rather suddenly, I would assume.
    Admiral Underwood. That is correct.
    Senator Kerry. I know they did a good job of managing a 
train that was left unattended with the throttle on, and I 
gather it ran for some 4 or 5 hours until they finally were 
able to get somebody on board who stopped it, so clearly they 
have some control, but we are talking about a train which has 
been altered out of its normal control configurations, if, 
indeed, it is subject to some kind of takeover. I mean, that is 
what I am trying to get at.
    Are you telling this Committee that it is foolproof, that 
somebody could not in fact board the locomotive and take 
control of the train?
    Admiral Underwood. I would never tell the Committee that 
something is foolproof. However, I would say that the scenario 
that you created is highly unlikely that someone can, and 
knowing that has occurred, the end result, what can they do, 
and I think there were other steps that can be taken after 
that, if that had not worked to regain control of that train.
    Senator Kerry. I understand that, but if you are dealing 
with people who are prepared to lose their lives driving into a 
building, are you not dealing with people who are prepared to 
lose their lives driving into a station?
    Admiral Underwood. They would have controlled the train 
before it got to the station.
    Senator Kerry. They can do that?
    Admiral Underwood. They can do that.
    Senator Kerry. So in other words, that is not a threat. 
That is the simple answer.
    Admiral Underwood. It would still derail the train. They 
can derail the train, force derailment.
    Senator Kerry. Is there a reason the Department has not 
moved more rapidly on the question of baggage inspection? Is 
there any particular reason we should be aware of?
    Admiral Underwood. I think there is some serious resource 
constraints, as were mentioned, on the ability to carry out 
that function. There is also the area of threat.
    Senator Kerry. People are measuring the threat, in other 
words and making the judgment?
    Admiral Underwood. Measuring the threat against the 
vulnerability. The vulnerability is there. The threat has not 
been there for our passenger trains in the United States.
    Senator Kerry. Well, I understand, and I appreciate that. I 
mean, obviously you cannot protect against every crowded event. 
You cannot protect against everyone, but you can take sort of 
the minimal level of precautions that most Americans are going 
to believe is reasonable, and the question is, I suppose, is it 
reasonable to expect to get on a moving vehicle with a sense 
that the other passengers on that vehicle do not have a weapon 
or some capacity to terminate your capacity to get where you 
are going. Is that a reasonable expectation for every American, 
is the question, and if it is, do we not have to take steps to 
guarantee it?
    Let me come to one other point with respect to that. There 
are 2 billion tons of freight that come into our ports and 
harbors every year. Prior to September 11, only slightly more 
than 1 percent of all of those cargo containers are inspected 
by either the Coast Guard, Customs or Immigration and 
naturalization officials, less than 1 percent of 2 billion tons 
of freight. Is that a threat to the United States?
    Admiral Underwood. It is the threat that existed before 
September 11 as well.
    Senator Kerry. But is that a threat? There are a lot of 
things that existed before September 11 that we now know cannot 
be allowed to continue.
    Admiral Underwood. We do not have a specific threat as 
such. In that regard there is concern. There is concern that 
there could be that threat.
    Senator Kerry. Let me express something to you, Admiral, 
and I think this is the feeling of a lot of people in the 
Senate, that the rules have changed.
    Admiral Underwood. Yes, sir.
    Senator Kerry. And a lot of us were very upset with the 
level of focus on this with respect to the so-called drug war 
and the trafficking in human beings. There are people who have 
been in those containers, people who were brought in basically 
for slave trade, and there are countless amounts of drugs that 
come in, and that has been tearing this country apart, and many 
people have said for a long period of time we have been 
resource-constrained, you and the Coast Guard.
    I mean, I am the chairman of that Committee. We have been 
fighting to get you decent ship capacity. You have just told me 
now, and this Committee, that we are going to have to reduce 
our fishing oversight, our aids to navigation oversight, and 
there was a third one, I forget which it was.
    Admiral Underwood. The law enforcement.
    Senator Kerry. Those are going to have to now be reduced to 
pay attention to the security one.
    Now, you know we are going to have to face up to the fact 
that some of these things are going to cost us some money, but 
I think the American public is prepared to pay a $5 or $4 or $3 
surcharge on a ticket to know they can get to their family at 
the other end of that ride, or that they are not going to lose 
their lives, or their kids are not going to in the in-between, 
and somehow the bureaucracy seems to be kind of just, gee, we 
do not know if we can do this, or this is a resource.
    We are not acting like this is a war, and I think we have 
got to kind of get some proposals on the table and do what is 
necessary to make the American public safe, and that is how you 
are going to fill the trains and the aircraft and get the 
economy moving again. Until people do--I was on a plane the 
other day. The business people were flying because they have 
to, but the economy section was three-quarters empty.
    So thank you.
    Senator Breaux. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much.
    Admiral as you are well aware, less than 4 percent of our 
international cargo is carried on American bottoms. Over 96 
percent on foreign bottoms. We have two cruise ships, American 
bottoms. The rest are all foreign bottoms, and in the State of 
Hawaii we have one railroad company, narrow gauge. It runs 
about a mile and a half and carries tourists, and so my concern 
is maritime transportation.
    The laws that we enact here will have very little impact 
upon the security practices in, say, Yokohama or Hong Kong, or 
in China, or Manila, or for that matter in Arabia or the 
Persian Gulf, and these are the ships that come to Hawaii. How 
do we project our security requirements abroad? I know that 
there is an international maritime organization that sets 
standards, but those standards are meaningless because we are 
not there to enforce them.
    Admiral Underwood. I think one of the things we are looking 
at very closely, and I know that Admiral Loy has testified 
before the full Committee on the issue of domain awareness, in 
particular maritime domain awareness, and that is, having all 
of the information of the databases that are currently 
available to us, databases that are developed oversees, 
databases that are developed within the agencies of the United 
States Government, to have those compiled and cross-matched, so 
that as much information can be gleaned on a particular vessel, 
on its crew, and on the cargo, all three of these things being 
able to give a better picture of what is actually coming into 
our nation, what is actually departing other nations to arrive 
on our shores, but then having the capability, in this domain 
awareness, to interact with that vessel long before it reaches 
our ports, and those areas where it has some suspicious cargo 
or a member in the crew that we believe is suspicious of some 
nature.
    Additionally, the Maritime Administration is working with 
other nations to develop that kind of sharing of information, 
international agreements, best practices.
    Senator Inouye. I do not want to give any suggestions to 
anyone but as you know, Indonesia is the largest country with 
the largest Islamic population, and apparently today we are 
involved with men and women of the Islamic faith, a very few of 
them. However, if there is a ship from Indonesia, and there are 
several that come to Hawaii carrying oil, and that cargo 
contains certain electronically controlled explosives, how can 
we counter that, and it is set up in Jakarta?
    Admiral Underwood. I have not seen anything that gives me 
that scenario as a threat against which we are working right 
now. What we are doing is looking at the ships. We are looking 
at known shippers, known routes. We are looking at the crew 
manifest. The Coast Guard is submitting a rule to extend the 
24-hour notification to a 96-hour notification so that we have 
enough time to review those lists of who is in the crew to 
determine whether or not these individuals want to do us harm 
or are part of a larger terrorist organization or not.
    Senator Inouye. Well, you do not have to be a member of a 
crew to place an explosive in anything. In fact, none of the 
hijackers were members of the crew, and so I hope we come up 
with something that I can assure the people of Hawaii, because 
the Port of Honolulu has surrounding them within a 10-mile 
radius about \1/2\ million people, and I want to be able to 
assure them that the security that is necessary is being 
carried out, but from what I gather today, I am not able to 
assure them.
    Admiral Underwood. Well, I would suggest that the captain 
of the port in Hawaii is taking all of those precautionary 
measures to enhance the security of the port, and that he is 
where necessary stopping vessels before they arrive in the port 
to examine them, to look at them. There has been an increased 
amount of the cargoes that are being inspected. These are 
extraordinary measures that are now being done.
    Senator Inouye. Are we stopping cargo before they reach our 
ports today?
    Admiral Underwood. In some cases they are stopping the 
vessel before they arrive in the port and going aboard with 
boarding teams to inspect the vessel and the cargo.
    Senator Inouye. Thank you very much.
    Senator Breaux. Thank you, Senator.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman. Thank you, Admiral. 
A couple of times in answer to one question by Senator Kerry 
and now Senator Inouye, you basically said, we do not know of 
any specific threat here. You were discussing the railroads and 
also the port, and I just think if there is anything we 
learned, it is that there is no specific threat that anybody 
would take an airplane and turn it into a missile and sacrifice 
all the people inside, so I think an answer, we do not know of 
any specific threat, just does not sit well with a lot of us 
who are concerned that we do not know what to expect, so 
therefore we should almost expect everything.
    Now, why do I say that? We had the Attorney General in a 
very frank way tell us, tell the whole nation that we should 
expect other terrorist attacks. I mean, it was rather stunning 
and candid and frank. It was not sugar-coated. The President 
has not sugar-coated anything. None of our leaders have.
    So it seems to me, knowing that, we need to not say, gee, 
we do not owe him anything, but what we need to say is, we are 
preparing for everything. Now, I know that is hard to do, and 
from what I have gathered from your testimony, I feel better 
about the situation of how many miles of track--what did you 
say, 220,000, did you say, miles of track?
    Admiral Underwood. Yes.
    Senator Boxer. Because it seems to me we have the 
technology, from what you have said, to spot if there is a rail 
that is displaced, and the ability to take control of the 
train, and that is very helpful.
    The thing that I am very concerned about after listening to 
you is the baggage checks, because--let me just say, I think we 
have an opportunity here, colleagues, because if we were to do 
a baggage check we just might get some people who are up to no 
good. It is an opportunity for law enforcement to check who is 
going on these trains, and again you say there is no specific 
threat, do not expect it to come that way. I do not think it is 
going to, because there are a lot of cells in this country, and 
plans may already be in place and we do not know it. You may be 
right, it may be nothing to do with cargo or trains. It may 
come in some other form, but we need to do everything we can.
    Can we stop everything? Maybe not, but I want to know, as 
Senator Inouye does, that I can look at my constituents and 
say, we have anticipated everything. How many members of the 
Amtrak police force are there?
    Admiral Underwood. I would have to defer that to the Amtrak 
chief of police.
    Senator Boxer. Is he here now? Is it possible, Mr. 
Chairman, I could find out? I am trying to find out how many 
members of the Amtrak police force there are.
    Senator Breaux. He will probably be able to address that 
with the next panel.
    Senator Boxer. If I could just have an answer.
    Admiral Underwood. There are 325.
    Senator Boxer. And I do not know exactly how many stations 
we have, but I am assuming that may not be enough.
    Mr. Chairman, I think what has come out so far, at least 
for me, in the rail issue--and I have not really spent as much 
time as I should on the cargo, and I am going to work with 
Senator Inouye and follow his lead on that--is that what you 
said at the outset, this baggage claim idea, that we need to do 
more.
    Now, we have about 325 Amtrak police, and it may not be 
enough to do this, and one of the things I have been checking 
on is how we could use National Guard and reserves, and there 
was an opinion written by Judge Rehnquist back in the seventies 
that it does not violate posse comitatus to use them. Then we 
have actually under 49 U.S.C. section 224 the clear ability to 
use, at least for air safety, so we may have to do something on 
train safety, but if we need to do something, my closing point 
I want to make is just one I made to Mr. Mineta, Secretary 
Mineta, is that what I would want to see from you, knowing that 
you do not have the resources, clearly, to do everything you 
want, if you could just tell us, say, if you want to do 
everything you can, Senate Commerce Committee, to make this as 
safe as it can be, the rail, the cargo, we would need A, B, C, 
D to Z, and then let us see how we can work to make it happen, 
that would be very helpful, rather than, it seems to me, what 
is happening is you are working within your constraints, and 
you are being a good soldier on that point, but I would feel 
better knowing what it is you need to do.
    In other words, to inspect every bag--just tell us what it 
is. It may be prohibitive, maybe we cannot, but I certainly 
would appreciate having that information. If you could go back 
and get us that information, then at least I could go fight for 
it. If I did not win the fight, but I need to know what it is 
you need and I need your premise to be that we could have an 
attack, not that you do not think there would be, but if we 
wanted to prepare for one, what it would take. I think it would 
help us both sides of the aisle.
    We may have an argument over what is the best way to go. We 
may have different philosophies about life, about how much you 
can protect people, but I would like to know that if you could 
go back and work those numbers up for me. Is that possible?
    Admiral Underwood. Senator, I would say that what we are 
working on at the Department is to provide that kind of 
information for the Secretary through the National 
Infrastructure Security Committee and through the various task 
groups.
    Senator Boxer. When will you have that?
    Admiral Underwood. I do not have the date or the time for 
that.
    Senator Boxer. Maybe I am missing something. I thought we 
were at war.
    Admiral Underwood. This is something that is a top priority 
for the Secretary.
    Senator Boxer. But we need it very soon. We do not have so 
much of a window. We have the Attorney General saying we could 
conceivably be hit again, and so we cannot wait, and he said, 
especially if we retaliate, and that could happen soon. We do 
not know what our President is, Godspeed, thinking of doing, 
and so we need to have the information faster than we are 
getting it. That is my opinion.
    I do not mean to be confrontational with you. I thank you 
for all your work. I just think we need to act a little more 
swiftly, and I thank you for bringing us together today.
    Senator Breaux. Thank you. Next will be Senator Snowe, 
Cleland, and Senator Stevens.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. Thank you for 
holding this hearing today, and thank you, Admiral Underwood, 
for being here. I know it is under some very difficult 
circumstances, and obviously we have to think differently in 
light of the unspeakable horrors that occurred on September 11 
that has propelled us into a new era. It has sounded an alarm 
bell throughout the country, and so obviously we have to begin 
to reexamine the way in which we conducted ourselves and did 
business before September 11, and now how we are going to do it 
in the aftermath of the terrorist attacks.
    I took the opportunity to speak with some of my local 
transportation officials in Maine, and particularly in the City 
of Portland, Maine, and they described to me various examples 
of the things that occurred on that day, and the days since 
September 11, not only with respect to aviation, but also with 
respect to rail and maritime procedures, and in fact they 
recommended to me--and I since have introduced legislation, 
because I really think it is a great idea. That is, to 
coordinate within the Department of Transportation all the 
agencies and all transportation-related activities in response 
to a national emergency similar to what the Federal Emergency 
Management Agency does in response to natural disasters. We 
need to have a coordinated response, not an ad hoc response to 
a national emergency.
    Now, I want to give you some examples of what occurred with 
them, and how they responded, because what they did was take 
local procedures, either local or state plans in place, and 
responded because they did not hear from federal agencies 
during that time, other than of course the FAA with the 
airport. With respect to other modes of transportation, I think 
if our country is going to be secure, we obviously have to be 
mobile, we have to protect our passengers, we have to protect 
our freight, we have to protect our infrastructure, because we 
now know various modes of transportation could be used for 
targets and for vehicles for violence. Therefore, I think we 
have to look at the gamut of transportation issues and begin to 
address them.
    Let me just mention a few points. First of all, they said 
that in time of crisis we should be all operating from the same 
page, that it is imperative that all parties at the federal, 
state, and local level are kept abreast of the information, 
sharing information not only at the time of the national 
emergency, but even up to that point, with regular information, 
because it is important that they have the same information, 
and that it is shared among all agencies and among all levels 
of Government.
    They said that the city was unable to get any official word 
from federal channels regarding the extent of the threat as it 
was unfolding. Twelve hours after the incident the city had yet 
to receive any official communication regarding the status or 
extent of the threat, and even 24 hours later, local 
transportation officials still had not received any official 
notification of threat assessments or security level from any 
federal agency.
    Another example. Local officials employed their own local 
existing incident response planning, shared information based 
on existing relationships at the local level, and responded to 
the situation as best they could.
    On September 11, approximately 14 trains passed through the 
City of Portland with little attention. The rail cars included 
chemical cars. The city has no authority to stop their 
movements. The local transportation officials eventually met 
with the Coast Guard as inbound vessels were scheduled, but no 
specific federal guidance or directives had come to the local 
offices from regional or Washington sources.
    On September 12, a cruise ship arrived at the harbor 
entrance. The vessel was detained at the harbor entrance while 
the Coast Guard, Immigration and Customs worked out a policy on 
the spot, in the absence of federal guidance.
    So--it was mentioned on the 12th that a second vessel, a 
cruise ship, arrived at the harbor entrance. The vessel was 
detained at the harbor entrance, while the Coast Guard and 
Immigration and Customs worked out policy on the spot. In fact, 
they told me what happened in Boston, at the Port of Boston, 
was different than what would happen in the Port of Portland 
with respect to the passengers, with respect to the cargo, with 
respect to the cars that are on these cruise ships, and so 
obviously we are going to need some uniformity of response and 
standards. And this is not critiquing the past. What happened 
before September 11 is obviously entirely different.
    We are in a whole new era, and obviously things have to 
change, and what they are saying is, that we not only need to 
have a coordinated and all-encompassing focus on the entire 
transportation network, but that emergency response also does 
require a federalized standard for nation-wide logistics, as 
well as coordinating the information for all agencies and for 
all levels of Government, and I think that would be one way of 
addressing this problem.
    For example, rail cars that are rumbling through 
communities that have tankers of hazardous waste, or other 
chemicals could represent a threat. We obviously have to 
determine how we are going to scan all the containers on these 
cargo ships, and in fact one has suggested maybe having an 
identifying marker that cannot be removed from the containers 
when they come into the port.
    Trucks are obviously another issue as well, but I think for 
the purposes of this hearing today, I would hope that you and 
the Department of Transportation would begin to think about 
this proposal of coordinating all of the transportation-related 
responsibilities and obligations and agencies to create a 
uniform federal response to a national emergency.
    Admiral Underwood. Senator Snowe, if I may, on 30 August of 
this year the Department of Transportation held an exercise 
that was designed to take every operating administration to the 
limit of a mass terrorist attack, and to develop their response 
and test their response plans for such an event.
    As you know, this was 12 days before the actual event 
occurred. The reason we were able to stand up a crisis 
management center within 12 minutes and have every one of the 
operating administrations represented at that crisis center 
with the right people was because of that kind of advance 
thinking and forward-looking in the Department.
    Prior to that, we had been sending out on a biweekly basis 
a transportation security and terrorism review, and that is 
about a two-page open source information sheet that we provide 
to all modes of transportation for further delivery to 
communities or to public transit systems, the industry 
throughout the country.
    We also provide a transportation security information 
report, which is a very specialized report. When we have an 
incident or know of a specific incident so that we can target 
exactly who receives that information, as well as in some cases 
on a very broad basis, and we have been providing those both 
before and since September 11.
    Senator Snowe. I appreciate your response, Admiral. I just 
think the time has come that we are going to have to move 
differently in a synchronized fashion, just as we do in 
response to natural disasters. I really do think we have to 
coordinate in a different way. The standards are going to be 
known, and the procedures, regularized in respect to sharing of 
that information. It needs to be standardized and pulled 
altogether, I think under one agency within the Department of 
Transportation, called the Federal Emergency Transportation 
Agency, similar to FEMA, so that we have this coordinated 
response and everybody is operating off the same page.
    I appreciate the work you are doing. No doubt it has been 
under some very arduous circumstances. I just think we are all 
going to have to think differently in terms of what happened on 
September 11, so I thank you for being here.
    And I also should say the Coast Guard did work very well 
with our people in Maine, and I met with Admiral Nacarra, who 
is the regional commander, and he came to Maine and apprised us 
of what they had done, and they have done an excellent job 
under some very difficult circumstances.
    Senator Breaux. Thank you, Senator.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman. 
Admiral, thank you for joining us today.
    Anthony Cordesman, with the Center for Strategic and 
International Studies here in Washington, says that, ``the next 
time they attack they will not be using aircraft.'' The 
likelihood, he says, is they will use a different weapon, 
something to break up the predictability. He went up to say, 
``it could be mass transit, or it could be public utilities, 
historical sites, or the media.'' Tightening security in one 
area will tend to push terrorists in other directions. One act 
of mass terrorism does not predict the next occurrence.
    If we are going to look for biological and chemical attack 
next time, Admiral, let me just observe here, I understand the 
Department of Transportation is working with the FAA to 
identify explosive detection technology that can be used in the 
passenger rail environment. The current project apparently is 
focusing on using this technology on Amtrak's high speed Accela 
train which covers the Northeast Corridor. In addition, 
apparently DOD has entered into a partnership with the 
Department of Energy to develop chemical agent detection 
systems in the underground transit environment. The Washington 
Area Metro System is currently a testbed.
    I would just like to observe that Georgia Tech, in my home 
state, has developed a small little glass chip just this size 
which can detect almost infinitesimal amounts of biological or 
chemical agents, and I pass that on to you so that your staff 
might want to contact Georgia Tech.
    Admiral Underwood. We do have an office set up in the 
Research and Special Programs Administration to bring in just 
that type of information so that they can prioritize it.
    Senator Cleland. Within a couple of hours of the Pentagon 
attack, the FAA brought down all aircraft, which is a 
remarkable achievement. Do we have any kind of train control 
like that? If an attack happens on a train in America, do we 
have some centralized system that can respond to some 
coordinated strike, terrorist strike on the U.S. rail 
infrastructure?
    Admiral Underwood. I understand your question, and that is 
one of the questions I had initially with the industry, and I 
am convinced that having a one set, stop all trains, is 
probably not in the wisest fashion good for security. My 
understanding of the rail industry is such, the dynamics of it 
is such that ordering trains to be stopped, just to stop them 
wherever they are, could possibly create worse targets than if 
you allow certain operations to continue, some to stop, some to 
be rerouted, and it is a very robust system. It requires just 
the kind of work they are currently putting into it.
    Particularly, I look at the hazardous materials and where 
those are being transported around the country, what rails, do 
we want to divert these off the really good rail we have now 
off to some side rail that maybe has not been inspected in a 
recent fashion and would then create an even greater hazard. We 
look at that. We are working closely--I am on a 24-7 call with 
the NSC. They have my number, and likewise I have a number to 
contact at the American Association of Railroads to get the 
same kind of threat information when we need to heighten the 
level of security.
    So from that perspective, I would just offer that as one of 
the things we are doing.
    Senator Cleland. Thank you. That is good thinking. Thank 
you.
    The Coast Guard, I am fascinated, the Coast Guard is in 
peacetime under the aegis of the Department of Transportation, 
but in times of war it is brought into the Navy. Do you see any 
kind of a role for the Coast Guard here under times of an 
emergency such as we are facing here, for the Coast Guard to be 
either supplemental to the Navy, or the Coast Guard to have a 
special mission, maybe tracking interception and so forth? Is 
there a way to use that framework to strengthen homeland 
defense and alleviate some of the stresses placed on Coast 
Guard resources?
    Admiral Underwood. Senator, the Secretary has directed the 
Coast Guard and the Coast Guard is responding with their study 
group on homeland security. What this current force laydown is 
requiring of us, what the losses to the Coast Guard are in 
other mission areas, and what we need in order to regain those, 
and with respect to specifically our work with the Department 
of the Navy, the United States Navy, it is a longstanding one 
of daily interaction.
    We have been working side-by-side with our Navy 
counterparts for as long as I have been in the Coast Guard in 
various missions. We have Coast Guard forces assigned to naval 
commands as I speak, and likewise naval forces working for the 
Coast Guard at various times, and all of this in an effort 
right now, they are joined in this Noble Eagle operation to 
bring security to our ports and waterways.
    Senator Cleland. Well, the USDOT administers the emergency 
preparedness grants program which helps state and local 
governments train police and firefighters to respond to an 
emergency situation involving hazardous materials. Now, 
currently that program is funded at only $12 million, but that 
amount of money can only train about 120,000 emergency 
personnel a year out of a pool of some $3 million. Do we, under 
this emergency situation, need to increase that, increase our 
aid to local firefighters and police in handling hazardous or 
chemical problems?
    Admiral Underwood. One of the areas that my office is most 
focused in is in the prevention aspect, as opposed to the 
consequence management. We are more in the crisis management 
end of that, so I am not as qualified to respond to that as I 
would like to be.
    I do know we have worked very closely with the state and 
local, as well as the national agencies that do oversee that 
program to ensure that they are getting training and the 
funding and the equipment. There is a concern that, while these 
are local and state first responders, that some of the 
responders in government such as the U.S. Coast Guard, which is 
in most of these local jurisdictions often a first responder, 
as a local arriving on a maritime event may not be receiving 
the same amount of equipment and training.
    Senator Cleland. Thank you, Mr. Chairman.
    Senator Breaux. Thank you, Senator.
    Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, and thank you for 
having this hearing. I would ask that an opening statement of 
mine be included in the record.
    Senator Breaux. Without objection.
    [The prepared statement of Senator Smith follows:]

               Prepared Statement of Hon. Gordon Smith, 
                        U.S. Senator from Oregon

    I want to begin by thanking Chairman Breaux for holding today's 
hearing. I know at this time we are all concerned about the security of 
our nation's transportation infrastructure. It is reported that 40 
percent of terrorist attacks worldwide are targeted at transportation.
    The tragic events of September 11 have focused new attention on 
land, air, and sea transportation safety and security. In the short 
time since the horrible attacks on our nation, two things have become 
very clear: (1) we must do more to protect the safety of the nation's 
traveling public and ensure the efficient movement of cargo, and (2) we 
must not allow the actions of any extremist to force fear into the 
traveling public.
    Following the terrorist attacks, trains were stopped, ports were 
closed, and as we all know, airplanes were grounded nationwide. 
However, these actions were brief and in most cases lasted only as long 
as it took to check systems and execute prearranged plans for higher 
security. Today, cargo and passengers are moving safely.
    According to the Bureau of Transportation Statistics, our nation's 
transportation system carried more than 14.8 billion tons of cargo and 
transported passengers more than 4.1 million miles in 1997, the last 
complete year for which they have statistics. Today those numbers are 
much larger and are expected to increase further as the volume of 
imports and exports continues to grow. With that volume of traffic, 
ensuring safety and security would seem to be an almost insurmountable 
task.
    Admiral James Loy, Commandant of the U.S. Coast Guard, wrote in a 
recent article on homeland security challenges, ``If the number of 
actors who conceivably threaten the U.S. homeland is daunting, the 
number and range of potential tools at their disposal is far more so. 
The number of differing means of attack is one of the principal 
difficulties in addressing Homeland Security.'' I agree with Admiral 
Loy that ensuring the safety of our homeland, and specifically our 
transportation system, is difficult, hut would add, not impossible.
    As I just noted, plans were already in place throughout our 
nation's transportation system to deal with major events, such as those 
of September 11. While these plans may not have anticipated a terrorist 
attack on two of the greatest symbols of our country's strength, they 
were designed to ensure the continued safety and security of the 
transportation system regardless of the target or means of attack.
    While I am pleased with the quick response, not only from the 
Administration, Secretary Mineta and the Department of Transportation, 
but also the transportation industry itself, I know there is more we 
can do. To date, the primary focus of our discussions and new security 
measures has been on the aviation industry. This is completely 
understandable given the direct impact that the transportation sector 
suffered during the terrorist attacks. However, I believe it is time we 
broaden our view to ensure that every reasonable thing is being done to 
prevent further disruptions to the transport of passengers and cargo 
both domestically and internationally.
    Today we are going to hear from witnesses from the railroad and 
maritime industry on the status of transportation within those two 
industries. I look forward to hearing from our witnesses on what steps 
their industries have taken to ensure the safety and security of both 
cargo and passengers in our nation's transportation system.
    Again, thank you, Chairman Breaux, for holding this hearing. I am 
pleased to note that the Subcommittee will soon hold additional 
hearings to look at the security and safety of other modes of 
transportation.

    Senator Smith. Admiral, thank you for appearing here. You 
are going to hear a lot of mixed messages today, but I think 
clearly the central message is, we need to do business 
differently. We need more security.
    But I also note for the record that, if you do everything 
that has been suggested here, we will have a police state and 
you still will not be able to assure 100 percent security. It 
behooves all Americans to be part of a security apparatus, and 
to be watchful and mindful, and it seems to me that if we want 
to interdict a lot of the terrorism that can come here, we had 
better do it before it gets to our shores, because we have got 
too many tracks and too many ports, and I cite an instance, an 
example that Senator Ensign shared with some of us this 
morning.
    The FAA has had a few more procedures at airports. In his 
home town of Las Vegas, after the attack, their occupancy rate 
to Las Vegas had dropped 20 to 30 percent. This weekend, it was 
back to 100 percent, and to clear security it was costing, in 
time, 5 hours per passenger. I have got to tell you, that is at 
cross-purposes with our effort to get airlines up and going 
again.
    We are sending you mixed messages--be secure, but keep 
things moving--so I want you to know some of us are hearing 
there are mixed messages going on here. We need more security, 
but we also need efficiency so as not to slow down our economy 
and retard some of the commerce that we are depending upon as a 
country to help get our economy moving again, so that is the 
predicate of what I wanted to tell you here today, but I also 
do have some specific questions.
    Can you tell me, since September 11th, given the procedures 
you have put into place, what has it meant in terms of timing 
and moving commerce through our ports? Is there a backlog 
beginning to develop, as we are beginning to see at some 
airports?
    Admiral Underwood. I have heard of backlogs at specific 
areas, primarily at the international borders, for cargoes 
coming into the United States, and those are across the land 
borders for heightened security reasons.
    Senator Smith. I do not want to tell you to lower security, 
so I want to ask you, can you maintain these higher rates of 
security but also decrease the time with which it is done? What 
do you need to accomplish that?
    Admiral Underwood. That is a matter of personnel and hours 
in the day.
    Senator Smith. As Senator Boxer was saying, I want to know 
what you need. I am reiterating that. I really want to know how 
you get the security without the inefficiency that is going to 
be built into this unless we really get you the money and the 
resources and the personnel to do the job.
    I would like to follow on to Senator Hollings question 
about port security. The Interagency Commission on Crime and 
Security in its findings reported that control of access at our 
seaports is part of our fundamental lack of security, and can 
you describe for this Committee in general terms what land-side 
security is in place at our seaports? Do we have some?
    Admiral Underwood. Well, to borrow a phrase from the 
airports, if you have seen one seaport, you have seen one 
seaport. Each seaport is different. Within particular seaports 
terminals are different, and are provided different levels of 
security. The State of Florida has most recently passed some 
fairly comprehensive legislation on seaport security, 
particularly from a land base that prescribes physical 
requirements to enhance the security, as well as other measures 
to ensure that personnel working within that port framework are 
not a detraction from the security environment.
    The same measures, or similar measures were part of the 
President's Port Security Commission, and a broad discussion of 
that and a lot of the things that are captured in Senator 
Hollings' bill, 1214, drive toward that. When we testified back 
in May in favor of legislation to enhance port security, I did 
so from a perspective that if we can eliminate the elements 
that bring crime into our ports, we also are working against 
those elements that could bring terror to our ports.
    I think in light of the events of September 11, I have to 
reassess not the vulnerability of our ports--the vulnerability 
remains high. It was high before--but the threat to our ports, 
which was at that time considered low. I have to reevaluate 
that threat based on the events and on the new information that 
we currently have.
    Senator Smith. Will part of that evaluation include 
background checks for individuals employed or seeking work at 
our nation's seaports? Is that one of the recommendations?
    Admiral Underwood. That is what is generally contemplated.
    Senator Smith. And what is going to be done? Do you need 
more authority from us to do that, or is this something you can 
do without an action of Congress? I mean, I think that we ought 
to have security and background checks on every employee, and I 
think that is going to have to be part of our dragnet, if you 
will, to find out if our seaports are, in fact, safe.
    Those who are working there I am sure would like to know 
that they are working with people who are not security risks to 
them and our country as well, so I would strongly urge that 
quickly be done, otherwise I think it is easy for some of us 
who are not as schooled in this as you, we can poke holes in 
the security we have in our seaports.
    Mr. Chairman, my time is up. Thank you.
    Senator Breaux. Admiral Underwood, thank you. Thank you, 
Senator Smith, and we will look forward to working with you as 
we further pursue different opportunities.
    We would like to welcome our next panel, which consists of 
Mr. Ed Hamberger, President and CEO, Association of American 
Railroads, Mr. George Warrington, President and CEO of the 
National Railroad Passenger Corporation, Mr. Joseph Cox, 
President of the Chamber of Shipping of America, and Mr. 
Michael Crye, President of the International Council of Cruise 
Lines.
    Gentlemen, welcome. Thank you very much. While we are 
letting you take your seats and prior to your testimony I want 
to recognize Senator Hutchison for an opening comment, since 
she was not able to make them previously.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, and I am going 
to have to make my comments and then leave, and I will come 
back if I can. I wanted to make a statement because I am very 
concerned about the proposals that are being put forward by 
Amtrak. As you know, Mr. Warrington, I have been the strongest 
supporter of Amtrak in the United States Senate, and have 
always said the reason I support Amtrak is because I believe in 
a national passenger rail option for America. Recent events 
have proven that if there is a viable option, that people will 
take the train, but this means that trains have to be 
reasonably predictable, and there should be a reasonable, 
stable base.
    Now, I have gone along with the huge capital subsidies of 
the Northeast Corridor. The reason that the Northeast Corridor 
is more successful and more mature is because Congress has 
given capital subsidies through the years. The rest of the 
Amtrak system has been starved today. After all of our work and 
after all of the pronouncements that Amtrak would be a national 
system, I see a request for $3.2 billion in emergency funding 
to improve security and increase capacity. Approximately $471 
million of this sum would be devoted to immediate security 
improvements such as security personnel, surveillance cameras, 
and bomb-sniffing dog patrols. I support that.
    Unfortunately, of the remaining $2.78 billion will be, only 
7 percent able to be used outside of the Northeast Corridor. 
Instead of requesting funding to build service and capacity for 
a national system designed to help move passengers between 
cities across the country and provide alternatives for 
travelers who usually fly on short-haul routes nation-wide, you 
have used this opportunity to focus entirely on the Northeast 
Corridor, and I think you have neglected the national rail 
system, and I cannot support that. Unless we start evening out 
the federal subsidies so that there can be a skeleton of a 
national system that works, I am not going to continue to 
support Amtrak, and I want Amtrak, I want passenger rail, but I 
have to question your sincerity when you come up with a $3 
billion package mainly for the Northeast Corridor, when they 
have had the lion's share of the subsidies in the past, and 
that is why they are better.
    So I am willing to go to bat for Amtrak as a national 
system, and to really try to infuse it. I think the long-term 
future is for Amtrak to have its own tracks so that you are not 
under the control of freight railroads, and I think it will 
take capital improvements to do that, clearly, but you are 
about to lose your second or third best supporter of Amtrak if 
you do not show that this is a national system. I am not going 
to continue to subsidize the Northeast Corridor without seeing 
the commitment to the national system.
    Senator Breaux. Thank you, Senator Hutchison, and lest we 
lose the moment, let us start with you, Mr. Warrington.

      STATEMENT OF GEORGE D. WARRINGTON, PRESIDENT & CEO, 
            NATIONAL RAILROAD PASSENGER CORPORATION

    Mr. Warrington. Let me make my statement, then I would like 
to address----
    Senator Breaux. Yes, summarize your statement, and if you 
can get to Senator Hutchison's points it might be helpful.
    Mr. Warrington. In the context of this morning's 
discussion, the first thing I would like to say is that on 
September 11 Amtrak took an extraordinary set of actions across 
the system. This morning there was considerable concern about 
the pace with which some of the security issues have been 
addressed as a matter of national policy. I want to be very 
clear and unambiguous that the entire network, the system, the 
transportation system subsequent to these events is clearly 
vulnerable. I think we all clearly understand that. I want you 
to know that Amtrak has taken extraordinary actions over the 
past 2 to 3 weeks to begin to address a number of those 
vulnerabilities.
    I will tell you, Senator Hutchison, I think you know that I 
am a very strong supporter of the national system. I will tell 
you also that this entire security package was focused around 
dealing with what really is a critical emergency need. It is 
focused around the tragedy that occurred on September 11. It is 
not intended in any way to signal a lack of interest, necessity 
or commitment to fully invest both capital and other resources 
in the national system to which we are all deeply committed to. 
The construction of that package and the concerns I heard from 
this Committee today have to do with pace. That package was put 
together very quickly in response to this Congress' concerns 
about immediate safety and security and capacity issues that 
could be accomplished and accommodated rapidly.
    One billion dollars of that package is devoted immediately 
to overcoming the decades-old problem of life safety, 
ventilation and the like in New York's Penn Station tunnel 
complex, the Baltimore tunnel complex, and the Washington Union 
Station tunnel complex. The Baltimore tunnel complex was built 
in 1873, and the New York tunnel complex was built between 1911 
and 1932. It is an aged complex. The Inspector General of the 
USDOT has highlighted this on many occasions over the last 
number of years, and we have been capital-constrained about 
addressing those kinds of issues.
    With respect to the security and equipment package, Senator 
Hutchison, it is an investment around the entire system. It is 
a very balanced investment around the entire system. With 
respect to the equipment aspect of that package, which is 
roughly $500 million, I will tell you that 50 percent of the 
overhauls associated with that program are on our long distance 
train network. We have plugged within that program $420 million 
to give us flexibility to acquire new and additional equipment 
because it requires a long lead time on equipment procurements. 
When I went through our bookings this morning, I was advised, 
we are about 27 sleeper cars short for our long distance train 
network, based upon the booking levels that we have seen, not 
just to date, but through Thanksgiving. I agree with you 
completely that we need to be balanced; we need to be 
responsive to those needs.
    The immediate emergency need, though, Senator, is primarily 
around the Northeast Corridor, and the life safety, capacity 
and reliability issues there. The security program is across 
this entire National System as is the equipment overhaul 
program. I can break those numbers out for you subsequently.
    [The prepared statement of Mr. Warrington follows:]

              Prepared Statement of George D. Warrington, 
        President & CEO, National Railroad Passenger Corporation

    Mr. Chairman and Members of the Committee, thank you for the 
invitation to join you here today for this very important discussion.
    I am also proud to introduce you to Chief Ernest Frazier, Chief of 
the Amtrak Police Department. The APD has been, for more than a decade, 
a nationally accredited police force, led and staffed by people with 
many years of experience. It works very closely in coordination with 
all of the relevant local, state and federal law enforcement agencies 
across the country, including the FBI Terrorism Task Force.
    Like all Americans, we at Amtrak are enormously saddened by the 
horror of the tragedies in New York, Washington and Pennsylvania. But 
also like all Americans, we are taking greater precautions and doing 
everything we can to help our country cope. I am proud of all the hard 
work that has been done by Chief Frazier and the 24,000 men and women 
of Amtrak during the past 3 weeks. It hasn't been easy, but I believe 
we have risen to the occasion, and we remain committed as always to 
keeping America moving forward.
    I want to emphasize that the safety and security of our guests and 
facilities is our number one priority. The national passenger rail 
system has a good record on this issue. And we are going to consult 
with our colleagues, study every angle, and take every appropriate 
measure to counter threats to our security and safety.
    We face several unique challenges in this endeavor. The foremost 
challenge is the relatively open and intermodal nature of the passenger 
rail system. For example, on an average weekday, New York's Penn 
Station handles about 30,000 Amtrak passengers a day. But at least 
300,000 additional passengers go through the station on the Long Island 
Railroad and New Jersey Transit. Thousands more use the station to 
transfer to New York City subways.
    And Penn Station is not unique. For more than 20 years, 
transportation policy has encouraged an open, intermodal environment in 
virtually every train station in the country.
    Further, I would point out that in Europe, Japan and other 
countries with a longer history of dealing with terrorism, you see much 
the same: open, intermodal passenger rail systems.
    The other major challenge is that the majority of tracks we operate 
on are owned by the freight railroads. So we are working closely with 
the Association of American Railroads' task forces on physical 
infrastructure, operational security and information security--and we 
will continue to develop new policies and procedures with them as 
needed.
    As I mentioned before, Amtrak has been operating on maximum alert 
since September 11. Within moments of the tragedy, we suspended all 
Amtrak service nationwide to allow for a top-to-bottom security sweep. 
All trains, tracks, bridges, tunnels, stations and other facilities--
including those controlled by others--were inspected within hours, and 
security personnel remain stationed at all facilities 24 hours a day, 7 
days a week. Entrances and exits are being patrolled, and access is 
being restricted.
    Last week, we implemented a new policy requiring Amtrak guests to 
present valid photo IDs and answer security questions when purchasing 
tickets or checking baggage.
    We have created a computer program that automatically cross-checks 
ticket purchases and reservations--whether they are made at a ticket 
counter, a QuikTrak machine or online--against the FBI watchlist on a 
real-time basis.
    Very shortly, we will be suspending on-board ticket sales in the 
Northeast Corridor between Washington, New York and Boston--which means 
that every guest that boards a Northeast Corridor train will have been 
reviewed for security purposes.
    We believe these policies strike the right balance between 
providing greater security and maintaining the kind of open, intermodal 
design that underpins virtually every rail system in the world.
    Going forward, we are committed to doing everything necessary and 
reasonable to improve our security further. We at Amtrak have created 
an internal task force with representatives from our police, 
operations, safety and engineering departments--all of whom are working 
very hard to develop and implement additional measures.
    In response to Congressional requests, we have submitted a $3.1 
billion September 11 Response Package, which breaks out like this:

  <bullet> First, about $1 billion is devoted to bringing railroad 
        tunnels in the New York, Washington and Baltimore regions up to 
        modern standards for fire- and life-safety protection.

  <bullet> Second, about $531 million is devoted to deterrence, 
        vulnerability reduction and emergency response efforts. This 
        will include new lighting, fencing, security cameras and 
        access-control systems; the hiring of additional police and 
        security officers and K-9 units; improvement of our command-
        and-communications systems; additional training in anti-
        terrorism and security measures; and hazmat detection and 
        response systems.

  <bullet> Third, about $949 million is needed for Northeast Corridor 
        capacity and reliability measures, to handle the increased 
        traffic we are experiencing and to improve passenger flow; and

  <bullet> Finally, $660 million is devoted to equipment repairs, 
        upgrades and acquisitions to handle increased demand 
        nationwide.

    Mr. Chairman, these are steps that we are confident we can 
implement quickly to further enhance the security, safety and capacity 
of our passenger rail system. The benefits of this package would be 
very significant:

  <bullet> We will reduce risks and meet higher public expectations 
        about the security of our passenger rail system;

  <bullet> We will speed the installation of critical ventilation, 
        fire- and life-safety systems in our tunnels, bringing them up 
        to modern standards; and

  <bullet> We will build a more reliable, flexible fleet to accommodate 
        changing consumer demand.

    Before closing, I would like to spend just a moment explaining some 
of the immediate steps we took in response to the national emergency. 
As soon as we determined that our system was safe on September 11, we 
began putting every available piece of equipment back into service and 
accepting the airline tickets of stranded travelers. For several days, 
we were one of the only transportation options around the country.
    As you may have seen in the media, our ridership has jumped by 10 
percent to 15 percent on a national basis since the attacks. Ridership 
on the high-speed Acela Express is up by as much as 45 percent; and 
long-distance trains are up about 12 percent. As we go forward, we 
believe there are several factors that are likely to cause a sustained 
increase in demand.
    In addition to helping thousands of ordinary travelers, we were 
honored to provide free transportation to the families and friends of 
many of the victims; and to firefighters, police officers, medical 
teams, airline crews and public officials. We've delivered relief 
supplies for the American Red Cross. We've even carried hundreds of 
extra carloads of U.S. Mail.
    Mr. Chairman, in closing I want to reiterate that the passenger 
rail system has a good record on security issues, but we also have some 
unique challenges. And it is my commitment to you and to every American 
that we will work with our colleagues in the transit and freight 
railroads, and everyone involved in this enterprise, to do what is 
necessary to provide every guest on our trains a safe, comfortable 
traveling experience.
    Thank you, and I will be happy to answer your questions.

    Senator Hutchison. Mr. Chairman, I thank you for letting me 
speak. I do have to leave.
    Senator Breaux. Do you want to follow up?
    Senator Hutchison. Frankly, we have subsidized the 
Northeast, and I cannot support something until I see a full 
package, with a full commitment in one package.
    Thank you.
    Senator Breaux. Mr. Hamberger.

      STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT & CEO, 
               ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Thank you, Mr. Chairman. On behalf of the 
AAR members, thank you for the opportunity to appear today, and 
I would like to extend the condolences and the sympathy of the 
AAR and its members to the families and friends of the victims 
of the terrorist attack on September 11. We heard here this 
morning the admonitions from Chairman Hollings for rapid 
response, and from Senators Rockefeller and Snowe for dynamic 
long-term planning. I would like to address my comments in 
those two areas.
    The freight railroads did react swiftly to the events of 
September 11, in full cooperation with the Government 
authorities. In the immediate aftermath of the attacks we 
tightened security, restricted access to important facilities, 
reduced speeds, intensified track inspections across the 
system, added additional guards at key locations, and rerouted 
selected trains.
    I would like to take a moment to salute our own internal 
police forces and our chiefs of police who have been working 
around the clock since September 11. Today, rail has remained 
in 24-hour, 7-day-a-week communication with the U.S. Department 
of Transportation intelligence and security personnel, the FBI, 
the National Security Council, and state and local law 
enforcement officials, and I would like to thank Admiral 
Underwood for the leadership he has exhibited at DOT in 
providing the needed intelligence data to the industry so that 
we can assess the risk and deploy our assets.
    We still have enhanced surveillance of operations and fixed 
assets. We have increased patrols. We have restricted access to 
our facilities. We have increased track inspection. We have 
restricted information available over the Internet regarding 
military movements and hazardous material movements, and we of 
course have had enhanced security briefings, turning over 
200,000 railroad employees into sets of eyes and ears gathering 
intelligence in the field.
    Turning to the longer term, in light of September 11 the 
AAR board of directors, on September 19, I might add, 8 days 
later, established five critical action teams. I want to 
emphasize that each of those has the full participation of our 
Canadian and Mexican members, as well as representation of the 
shortline rail industry. The five teams are, information 
technology and communications, examining the security of 
communications and control systems and information systems, 
including cyber threats; physical infrastructure, which is 
addressing the security of the physical assets, such as 
bridges, dispatch centers, tunnels, as well as cross-border 
issues; operational security, addressing issues to minimize 
exposure to unplanned occurrences while trains are actually 
moving; hazardous materials, which cuts across several of these 
Subcommittees, but so important we formed a special team that 
is working with the chemical industry and tank car 
manufacturers to examine additional security options, including 
surveillance, routing, remanufacturing and packaging with an 
emphasis on materials that pose the greatest potential safety 
risk; and fifth is military liaison, building on close existing 
working relationships with the Department of Defense to meet 
the capacity, security, and specialized equipment of military 
requirements.
    Each team is assessing short-term and long-term 
vulnerabilities in the area of people, process, and technology. 
I am sorry Senator Cleland left, because we are looking for new 
technologies to assist us in this area. The teams will develop 
an array of countermeasures which will be assessed for their 
effectiveness to prevent and mitigate a terrorist attack.
    To assist us in this effort, Mr. Chairman, we have retained 
a group of former U.S. military and civilian security and 
intelligence experts who will help us evaluate our security 
systems from the perspective of a terrorist. Notwithstanding 
all of our efforts there is no 100-percent guarantee against 
terrorist assaults. Fortunately, railroads already have long-
established programs and procedures to protect our employees 
and the communities in which we operate, as well as to sustain 
the flow of freight.
    These include emergency response plans for hazardous 
materials incidents, operational redundancy, and the training 
of rail employees and public emergency response personnel. 
These programs and procedures can and will be invoked if there 
is a terrorist attack involving railroads, but let me 
reemphasize, the total focus of the effort is to detect and 
prevent terrorist attack. Again, let me emphasize the 
importance of intelligence in being able to do that.
    We have a weekly meeting with our CEOs, who are, as you may 
know, not in the habit of meeting for meetings' sake. We begin 
each meeting and end it with a question, are we safer today 
than we were yesterday? That is our focus, and we will continue 
to work in that regard, and Mr. Chairman, I thank you for 
addressing this important issue and, having this Committee 
hearing. We are saddened by the events that precipitated it, 
but appreciate your leadership in addressing the important 
issues before us.
    [The prepared statement of Mr. Hamberger follows:]

              Prepared Statement of Edward R. Hamberger, 
           President & CEO, Association of American Railroads

    On behalf of our members, thank you for the opportunity to meet 
with you today to discuss the important issue of railroad security. The 
Association of American Railroads (AAR) represents the major North 
American railroads, which account for the vast majority of rail 
mileage, employees, and revenue in Canada, Mexico, and the United 
States.
    The AAR and its members join the rest of our great nation in 
extending our sympathy and condolences to the victims of the terrorist 
attacks on September 11, to their families, and to their communities. 
We offer our thanks and support to those who have been working so 
diligently in search and rescue operations, and we express our firm 
hope and confidence that all of the perpetrators of the attacks will be 
found and punished.
    The rail industry reacted swiftly to the events of September 11, in 
full cooperation with government authorities. In the immediate 
aftermath of the attacks, railroads tightened security and intensified 
inspections across their systems. Major railroads, which maintain their 
own police forces to help assure the security of employees, property, 
and freight, put enhanced security plans in place. Access to important 
rail facilities was restricted. Movement of freight to the New York 
area was suspended completely until the immediate threat was over.
    At the same time they were attending to security issues, though, 
railroads realized they had a responsibility to keep our nation's vital 
rail-transport link open, and they have done so. Full service has been 
resumed as quickly as the railroads, in cooperation with the U.S. 
Department of Transportation, determined it could be. Even in the hard-
hit area around New York City, freight trains are again doing what they 
do every single day of the year--moving the raw materials and products 
that sustain our nation's economy. The entire rail industry--passenger 
and freight, front line employees and management, customer and 
carrier--all reacted with courage and resolution.
    Today, railroads remain in 24 hour/7 day a week communication with 
U.S. Department of Transportation intelligence and security personnel, 
the FBI, the National Security Council, and state and local law 
enforcement officers, and have plans in place to respond immediately to 
credible threats to our transportation network.
    To further address significant security-related issues, the AAR 
Board of Directors has established five critical action teams, each led 
by a senior railroad or AAR executive and each involving the full 
participation of AAR members, including our Canadian and Mexican 
members. The overarching focuses of these critical action teams, which 
are outlined below, are (1) to ensure the safety of our employees and 
the communities in which we operate; (2) to protect the viability of 
national and regional economic activity; and (3) to ensure that 
railroads can play their vital role in the military mission of our 
nation. In addition, freight railroads will cooperate fully with the 
critical action team dealing with rail passenger security.
        LThe five critical action teams established by the AAR are:

        1. Information Technology and Communications

          This critical action team is examining the security of 
        communications, control systems, and information systems for 
        the industry, including redundancy and data confidentiality. An 
        ongoing examination of issues related to cyber security has 
        been folded into this effort.

        2. Physical Infrastructure

          This critical action team is addressing the security of 
        physical assets such as bridges, buildings, dispatch centers, 
        tunnels, storage facilities, and other structures. The team is 
        also addressing cross-border and port ``gateway'' physical 
        security issues.

        3. Operational Security

          This critical action team is addressing issues to minimize 
        exposure to unplanned occurrences while trains are in 
        operation. The team is analyzing potential types of 
        occurrences, their probability, and their consequences, as well 
        as addressing the issue of fuel supply.

        4. Hazardous Materials

          This critical action team is working with the chemical 
        industry and tank car manufacturers to examine the transport of 
        hazardous materials by rail--including surveillance, routing, 
        remanufacturing, and packaging--with emphasis on materials that 
        pose the greatest potential safety risk.

        5. Military Liaison

          This critical action team is augmenting the already existing 
        close working relationship between railroads and the Department 
        of Defense to determine immediate and ongoing military traffic 
        requirements and to identify capacity, security, and equipment 
        needs of the industry to meet military demand. Railroads are 
        confident that, if called upon, they will be able to match 
        their performance during the Persian Gulf War, when they and 
        other transportation providers accomplished one of the greatest 
        mass movements in history in a way that was ``so smooth it is 
        almost as if there isn't a war going on,'' according to a 
        spokesman from the Army's Military Traffic Management Command 
        at the time.

    Each of the critical action teams described above is working 
quickly but carefully. They are assessing short-term and long-term 
vulnerabilities in the areas of people, process, and technology and are 
developing an array of additional countermeasures. These 
countermeasures will be deployed to prevent, detect, and mitigate any 
terrorist attack. To assist us, we have retained a group of former U.S. 
military and government security experts who bring a valued perspective 
to our evaluation. The analyses and action plans generated will form 
the basis for additional measures deemed necessary to enhance the 
security of our nation's freight rail network.
    Notwithstanding all of our efforts, experts will tell you there is 
no 100 percent guarantee against terrorist assaults. Fortunately, 
railroads are accustomed to operating in adverse conditions. In order 
to respond to, mitigate, and minimize the impact of dangerous and 
unusual incidents, railroads have established and practiced programs 
and procedures to protect the communities we serve and our employees, 
and to sustain the fluid flow of freight on which our economy depends. 
These programs and procedures include the establishment of emergency 
response plans for hazardous materials incidents and natural disasters, 
operational administration redundancy, and the training of rail 
employees and public emergency response personnel. These programs and 
procedures can and will be invoked in the event of a terrorist attack 
involving railroads.
    Finally, a terrorist action against railroads could have ruinous 
consequences for the railroad industry itself, thereby jeopardizing the 
critical role railroads play in our economy. AAR member freight 
railroads have already been notified by their insurance companies 
following the events of September 11 that the railroads' liability 
insurance premiums will be increased substantially and some coverage 
may be eliminated when renewals come up. As a result, the rail industry 
notes with interest the insurance assistance and the limitations on 
liability afforded the airline industry in the recently enacted ``Air 
Transportation System Stabilization Act.'' We believe that railroads, 
as common carriers, should be afforded similar liability protections 
and insurance relief.
    We are deeply saddened by the events that precipitated this 
hearing, but we commend this Committee's leadership in addressing the 
important issues before us.

    Senator Breaux. Thank you. Mr. Crye.

           STATEMENT OF J. MICHAEL CRYE, PRESIDENT, 
             INTERNATIONAL COUNCIL OF CRUISE LINES

    Mr. Crye. Good morning, Mr. Chairman, Senator Smith. My 
name is Michael Crye. I am the president of the International 
Council of Cruise Lines. I have a rather lengthy prepared 
statement that I would like to ask to be inserted into the 
record.
    Senator Breaux. Without objection. You may summarize it.
    Mr. Crye. The cruise industry's highest priority is to 
ensure the safety and security of its passengers and crew, and 
we are working very closely on a daily basis with federal, 
local, and state authorities to ensure the highest level of 
safety for our passengers and crew. The cruise industry in the 
United States is roughly an $18-billion a year industry, and 
257,000 American jobs are created by the industry.
    A cruise ship is inherently secure because it is a 
controlled environment with limited access, one way on, one way 
off. Security plans on cruise ships have been in place since 
1986, when the International Maritime Organization adopted 
measures to prevent unlawful acts against passengers, and again 
in 1996 when the United States Coast Guard issued federal 
regulations with respect to passenger terminal and passenger 
ship security in the United States.
    All of the membership of the International Council of 
Cruise Lines, which I represent, have security plans on file 
with federal agencies and with the Coast Guard. The security 
plans are reviewed every year by the Coast Guard and by the 
National Maritime Center of the Coast Guard. These particular 
security plans have automatic levels of threat assessment 
involving vulnerability assessment, and have different levels 
of requirements for security.
    The three levels of security are low, medium, and high, and 
the industry is currently operating at level three, the highest 
level. The protection of all ships in port is provided by a 
combination of several law enforcement agencies, including 
federal, state, and local. The Coast Guard is responsible for 
the overall security and safety of the port, and has designated 
some of the responsibility to local port authorities as well, 
and in some cases terminal operators.
    All of our ships have on-board security staff that are 
fully trained and are oriented to the IMO safety requirements 
as well as the Coast Guard regulations. Today, on board a 
cruise ship you will expect to find exactly the same kind of 
screening process that you will experience going on and off an 
aircraft. You will need positive identification, 100 percent of 
your luggage and carry-ons will be searched either by X-ray or 
by dogs, or hand searched.
    You will have to pass through a metal detector. All 
supplies coming off and on-board the ships are screened and 
inspected for any type of security threat. We are communicating 
by conference call on a daily basis. The first call occurred 
the afternoon of September 11--with all of our member lines' 
chief executive officers participating. The next morning we 
also began daily conference calls with our security managers, 
as well as our operations folks. Those particular security and 
operational calls have continued on a daily basis ever since 
September 11. The Coast Guard, the Department of 
Transportation, the Immigration and Naturalization Service are 
participating in those calls.
    We began a coordinated approach to try to establish a 
uniform national requirement for security, but each Coast Guard 
captain of the port has some delegated responsibility to take 
unilateral action above what is required on a national basis. 
Various captains of the port have, in fact, established 
additional security requirements.
    At the Port of Portland, Maine that Senator Snowe mentioned 
earlier, that particular Coast Guard captain of the port is to 
be congratulated for establishing additional requirements on 
the spot that he felt were necessary to achieve the appropriate 
security levels in that particular port. Those particular 
security levels and security requirements he established were 
communicated immediately to the cruise ship industry and the 
various cruise ships that were trying to sail into Portland.
    We also have open lines of communication through our 
security management system with the Federal Bureau of 
Investigation, the Department of Defense, the Department of 
State, and Customs. We have high-tech communications and 
separate communications systems that are available to ensure 
that there are alternate means of communications with all of 
these federal agencies that are concerned with security. Again, 
our highest priority is to ensure the safety and security of 
our passengers and crew, and we believe that we have done a 
good job of addressing these issues in the past several weeks.
    Thank you, sir.
    [The prepared statement of Mr. Crye follows:]

                Prepared Statement of J. Michael Crye, 
            President, International Council of Cruise Lines

    Mr. Chairman, my name is Michael Crye, and I am the President of 
the International Council of Cruise Lines (ICCL). I am pleased to 
appear before the Subcommittee today to discuss the increased security 
efforts that have been implemented by the cruise industry in response 
to the terrorist attacks on September 11. With me here today is Captain 
Ted Thompson, the Executive Vice President of the ICCL. His duty 
involves coordination of security and operations for our membership. We 
are shocked and deeply saddened by the attack on America and the 
tremendous loss of life that resulted from this national tragedy. In 
light of these recent events, we have heightened our already strict 
levels of security even further, and our cruise lines have been working 
on a daily basis with all appropriate federal, state, and local 
agencies to ensure that traveling Americans are protected to the 
maximum extent possible.
    ICCL is a non-profit trade association that represents the 
interests of l6 of the largest cruise lines operating in the North 
American cruise market and over 73 Associate Member companies that are 
cruise industry business partners and suppliers. ICCL member cruise 
lines serve major ports in the United States and call on more than 400 
ports around the world. Last year, ICCL's member lines carried more 
than 7 million passengers on 95 vessels.
    We welcome the opportunity to appear before the Subcommittee today 
to review and discuss our industry's efforts to ensure the safety and 
security of all of our passengers and crew. The cruise industry's 
highest priority is to ensure the safety and security of its 
passengers. A cruise ship is unique in that it is inherently secure 
because it is a controlled environment with limited access. However, in 
order to maintain this secure environment, cruise lines have 
established strict and highly confidential ship security procedures 
that cannot, for obvious reasons, be discussed in detail. These 
procedures are, in part, outlined in measures set forth by the 
International Maritime Organization (IMO), and the regulations 
established by the U.S. Coast Guard (USCG). In the United States, the 
USCG oversees the enforcement of these security measures. Regulations 
address both passenger ship and passenger terminal security and outline 
methods to deter unlawful activities onboard passenger vessels.
    In l986, the IMO adopted Measures to Prevent Unlawful Acts Against 
Passengers and Crew. These measures address restricting access to 
authorized personnel onboard the ship and at the passenger terminal, 
and monitoring the flow of materials and consumable supplies brought 
onboard a ship. Security procedures within these measures include 
inspection of all carry-on baggage and the use of metal detectors for 
embarking passengers. Strict passenger screening to prevent 
unauthorized entry or carriage of weapons onboard is only one component 
of the security procedures implemented to deter unlawful acts on board 
and to provide for the safety of all passengers.
    In l996, the USCG implemented an Interim Final Rule on Security for 
Passenger Vessels and Passenger Terminals, which was finalized in 
October of l999. This rule sets three levels of security (low, medium, 
and high) based on the nature of the threat received and requires 
vessel operators and port terminal operators to adjust security levels 
accordingly. These regulations also require ship operators to submit 
Comprehensive Security Plans to the USCG for review and acceptance. All 
ICCL member lines have submitted the required security plans. These 
plans have been accepted by the USCG and are audited annually. The 
security plans, which are sensitive law enforcement documents and 
therefore not available to the public, include the following major 
components:

  <bullet> Identification of three levels of security and specific 
        procedures to follow at each level

  <bullet> Prevent unlawful acts on board

  <bullet> Prevention and deterrence of weapons and other unauthorized 
        items onboard

  <bullet> Prevention and deterrence of unauthorized access to vessels 
        and restricted areas

  <bullet> A security officer onboard every passenger vessel

  <bullet> Security training for all crew members

  <bullet> A security plan that is coordinated with the terminal 
        security plan

  <bullet> Reporting of violations and unlawful acts

  <bullet> Annual security audits for each ship and reviews by the USCG

    Passenger vessel security plans and their amendments are reviewed 
by the USCG National Maritime Center and inspections are conducted by 
the Captain of the Port to verify that all security practices and 
procedures are effective and up-to-date.
    The U.S. Department of Transportation Office of Intelligence and 
Security and the USCG Commandant direct the implementation of 
nationwide and local security levels. Domestic threat advisories are 
provided to the industry summarizing the nature of the security threat 
and specifying changes to security levels both locally and nationally. 
As a result of the attacks in September, implementation of Level III 
security was directed by the U.S. Coast Guard at U.S. ports. ICCL 
member operators reported that they implemented Level III security 
measures even before it was ordered by the USCG.
    Security Level III is the highest level of security set by Coast 
Guard Passenger Vessel Security regulations. At U.S. cruise terminals, 
passenger vessel security measures include passenger screening 
procedures similar to those found at airports. This includes l00 
percent screening of all passenger baggage, carry-on luggage, ship 
stores and cargo, and also includes higher levels of screening of 
passenger identification. Official passenger lists are carefully 
reviewed and proper identification is ensured before anyone is allowed 
to board the vessel. Even before the attacks of September 11, all 
passenger lists were made available to the INS and Customs for 
screening. Passenger identification is now subject to even stricter 
scrutiny and the industry is working closely with the INS and other 
federal agencies to ensure that those passengers suspected of being on 
the INS ``Prevent Departure'' list are reported to the federal 
authorities for further action.
    Another component of Level III Security requires ship operators to 
restrict access to authorized personnel and to identify restricted 
areas on the vessel that require positive access control such as 
intrusion alarms, guards, or other measures to prevent unauthorized 
entry. Restricted areas on a vessel will include the bridge, the engine 
room, and other areas throughout the ship where operations are 
conducted. Other onboard security measures, not generally discussed for 
obvious reasons, are employed to maximize shipboard security and to 
deter unauthorized entry and illegal activity. Every vessel has a 
trained security staff responsible for monitoring activities and 
responding to any suspicious activity that may jeopardize the safety of 
the passengers and crew.
    For many years, the cruise industry has been pro-active in 
developing effective security measures and has looked for ways to 
increase passenger safety. In fact, most ICCL member lines now utilize 
advanced technologies to control access to our vessels. The Passenger 
Access Control System, that has been installed on most of our member's 
vessels, utilizes a passenger identification card that takes a picture 
of the passenger at the time of boarding and scans the picture into an 
onboard computer. During the course of a cruise, the identification 
card is presented each time a passenger departs or boards the vessel. 
The picture appears on a computer screen that is matched against the 
person's face for identification purposes before they are allowed to 
board the ship. This new technology is part of an overall onboard 
security system that further enhances the proper identification of all 
passengers and crew boarding the vessel.
    Since l998, ICCL and its member operators have been members of the 
U.S. Interagency Task Force on Passenger Vessel Security. This group 
meets every 60 days to discuss emerging security issues, receive 
updated threat information, and address specific security concerns. 
Since September 11, the ICCL Security and Operations Committee members 
have efficiently communicated and resolved problems in daily conference 
calls with all of the appropriate federal agencies. This information 
exchange has proven to be valuable both to our member lines and the 
federal agencies involved as we mutually address matters impacting both 
ship operations and security. We are committed to providing the highest 
levels of security for our passengers and to working with appropriate 
federal agencies to address additional security measures that may 
become necessary.
    Mr. Chairman, we in the cruise industry, believe that our security 
plans and working relationships with regulatory agencies are 
accomplishing many of the goals of the Port and Maritime Security Act 
of 2001. The collaboration and cooperation of all agencies and industry 
exhibited since the events of September 11 are also accomplishing many 
of the goals of this legislation. Of course all of the additional 
security measures that we have put in place are consuming resources and 
money at a rapid pace. I would urge you to ensure that there is 
adequate funding that comes with any additional mandates that you place 
on agencies, ports or industry in this legislation. These are 
challenging times, but our industry pledges its cooperation in working 
as partners to maintain the outstanding safety record of the cruise 
industry. As I stated before, the highest priority of the cruise 
industry is to provide a safe and secure vacation experience for our 
passengers.
    This country can and will unite to exercise one of our most 
cherished freedoms, the freedom to travel. It is up to us to ensure 
that we protect not only the freedom, but to ensure that those whose 
goal it is to disrupt our way of life are not successful. We, in the 
cruise industry, will do everything possible to protect those who 
choose this outstanding and safe vacation option.
    Thank you for the opportunity to appear before you today.
    GOD BLESS AMERICA.

    Senator Breaux. Thank you, Mr. Crye. Mr. Cox.

            STATEMENT OF JOSEPH J. COX, PRESIDENT, 
                 CHAMBER OF SHIPPING OF AMERICA

    Mr. Cox. Thank you, Mr. Chairman. With your permission, I 
will submit my testimony for the record and make some 
extemporaneous remarks. Thank you.
    Mr. Chairman, the Chamber of Shipping of America is the 
American Shipowners' Association. We trace our roots back to 
1917, and we represent all types of vessels, including crude 
and product tankers, container ships, chemical tankers, ro-ro 
ships, and bulk carriers.
    The first thing we would like to do, Mr. Chairman, is 
through your Subcommittee offer our deepest sympathy to the 
family and friends of those who have been terrorized through 
these acts. Not only the victims and the families have been 
victimized, but we ourselves, as the American people, have been 
victimized. The day following the attacks the Chamber of 
Shipping of America received letters of sympathy from our 
international colleagues at the Baltic and International 
Maritime Council, the International Chamber of Shipping and 
Intercargo. Together, those organizations and ourselves 
represent probably 90 percent of the world's ships.
    Mr. Chairman, CSA is involved in both U.S. domestic and 
international trade issues, and two key points we would like to 
place before the Subcommittee is that the maritime is a basic 
tool of trade for the United States, and in that trade we are a 
world leader in establishing policies to be followed. What we 
do in our country as a result of these actions is going to have 
repercussions around the world, not just in the United States, 
and the volumes of trade involved have to be appreciated by the 
American public. Two aspects of that trade are oil and 
containers that carry our general cargoes in and out of the 
country.
    With respect to oil, the United States consumes somewhere 
near 18 million barrels a day, and a barrel is 42 gallons, and 
so we are consuming somewhere about 750 million gallons of oil 
a day. We import around 8 million barrels of that via ships. 
Gasoline and heating oil move along our coasts on vessels, and 
Alaska itself contributes about a million barrels a day of oil 
to our nation's needs.
    With respect to containers, there are approximately 18 
million or so containers that are imported and exported from 
the United States. Our imported containers number around 11 
million. Average a day would be about 30,000, but I think that 
average is misleading, given that there are some ports with 
extremely large numbers of containers crossing the dock within 
a period of time.
    Mr. Chairman, Committee members, the primary focus of ship 
operations has been, and I think will continue to be, an 
efficient movement of the cargo, and that efficiency has inured 
to the benefit of the American public and the world's public. 
Whatever changes we have to make, we have to absorb within that 
trading system.
    The industry characteristics have shifted quite 
dramatically in the past 25 years. We no longer have a world 
maritime trade which is dominated by a few major maritime 
nations. We have a maritime community where the shipowner can 
be of one nationality, the vessel could be another nationality, 
the mortgage bankers can be a third nationality, the actual 
operator of the ship, the people on board the ship as officers 
and the people on board as crew could all be different 
nationalities.
    Two present actions can be seen as ship-specific, that is 
utilizing the ship as a mechanism for damage or seeing the ship 
as a target from outside. I think both have to be viewed in 
terms of what the potentials are. The single answer that we 
have today is stepped up vigilance and scrutiny of our 
operations. The maritime community does not operate in a 
regulatory vacuum. We operate with a great amount of federal 
oversight. We also operate with a great amount of commercial 
oversight over these transactions that take place with ships. 
We have to make everyone in that process aware that they have 
to be watching for aberrations in the system, and no longer 
just wonder what is happening, but ask questions about it.
    Last week, we were very active with a request from the 
United States Coast Guard that vessels send in their advance 
notice of arrival 96 hours in advance versus the 24 hours that 
is in the regulations now. The Coast Guard indicated that they 
are working on a regulation. We understand that, but we have 
instituted a voluntary practice of trying to get those crew 
lists and the advance notice to the Captain of the Port as soon 
as possible. We have asked ships, and they have told us, that 
they are controlling access to their vessels in foreign ports 
to the extent that they can, limiting it to business personnel.
    We have recommended that the ships maintain a watch not 
only in foreign ports but in our ports on the water side. Ship 
communication should always be open. We think that the U.S. 
pilots who do an excellent job moving these vessels, very large 
vessels, I might point out, into our ports should maintain some 
type of constant shore contact. We believe they do. We believe 
that can be built upon in terms of our protection.
    We think the VTS monitors many aspects of trade in and out 
of the United States. The Vessel Traffic Service should be 
enhanced. Agents and other shore personnel should be 
questioning what happens. Ports and terminals should limit 
access of personnel to the port and terminals that have 
business to be there.
    The oil terminals, we understand, in this country have a 
closed gate policy now. If you do not have business on that 
ship, you are not going to be in there, and if you do have 
business, you are going to have to prove what that business is, 
and also the identification of yourself.
    We should also at the same time take care not to put undue 
burdens on American citizens manning our tankers and cargo 
ships plying along our coasts. Those are the very people we are 
going to have to rely upon should there be an escalation that 
necessitates actions in maritime.
    Mr. Chairman, I am going to conclude by saying we must have 
national uniformity, including activities on our public and 
private terminals, and we certainly want to work with our 
administration and the U.S. Coast Guard to that end.
    I want to thank you for the opportunity to testify, and we 
certainly are here to respond to any questions. Thank you.
    [The prepared statement of Mr. Cox follows:]

                 Prepared Statement of Joseph J. Cox, 
               President, Chamber of Shipping of America

    Thank you Mr. Chairman. It is a pleasure to testify before your 
Subcommittee on this important topic.
    I am Joseph J. Cox, President of the Chamber of Shipping of America 
(CSA). The Chamber represents 21 U.S. based companies that own, operate 
or charter oceangoing tankers, container ships, chemical tankers and 
other merchant vessels engaged in both the domestic and international 
trades. The CSA also represents other entities that maintain a 
commercial interest in the operation of such oceangoing vessels.
    Before starting my testimony on the subject, I would like to take a 
few moments to express the deep sympathy of the maritime community to 
the victims and families and friends of victims of these terrorist 
attacks on American soil. We watched in horror, as virtually all the 
nation did, as the World Trade Center towers collapsed. Many of our 
friends and colleagues worked in or near the disaster and we were 
relieved when we heard reports of the safe exit of many; we mourn and 
pray for those who are lost. The day following the terrorist attacks, 
CSA received letters of condolence and support addressed to the U.S. 
maritime community from our international colleagues at the Baltic and 
International Maritime Council, the International Chamber of Shipping 
and Intercargo. We thank them on behalf of our industry. Every day as 
we commute past the Pentagon, we are reminded of the damage and loss of 
life. Pictures do not do justice.
    Today, CSA has been asked to discuss security issues within the 
maritime industry. We will start with a brief description of the types 
of vessels involved, the trades and terminals. We will then describe 
ship operations, company activity and interface with government 
agencies. This will be followed by a general description of cargo 
movements and we will conclude with a description of steps being taken 
and some recommendations.

Chamber of Shipping of America--International and Domestic 
        Responsibilities
    CSA traces its roots back to 1917 and the development of the first 
international treaty on maritime safety. Since that time, the U.S. has 
had extensive dealings with the international community on maritime 
matters. We mention this because it is critical to recognize two very 
important points: the maritime industry is the basic tool of 
international trade and the U.S. has been one of the leaders in the 
development of policies for this industry for decades. At the same 
time, we have an extensive trade in our waters among U.S. companies. 
The needs of the U.S. for a secure waterfront will have an impact on 
our ships and the ships of our trading partners. We should recognize 
that ships are the critical mechanism for the United States in its 
world trade leadership. Ships are the lifelines of trade from other 
nations to the U.S. and from the U.S. to the rest of the world.
Types of Ships
    CSA represents all types of ships that carry cargo. These include 
container ships, tankers, both crude and product tankers, roll-on roll-
off ships, integrated tug-barge units and large coastwise barges. Our 
members are involved in operating ships, chartering ships, arranging 
for crew and pilotage, government inspections, insurance surveys, 
complying with laws and regulations, responding to customer requests 
and generally keeping the maritime commerce of the country on the move.
    Container ships, which are a U.S. invention, are designed to carry 
intermodal containers. An intermodal container can be one of a number 
of lengths although the most prevalent is the 40-foot container. This 
is recognized by probably all Americans as the standard truck size that 
we encounter on our highways. Many of the trucks encountered by the 
U.S. driving public are actually containers that were only a short time 
previous on an ocean voyage. The efficiency of the system is based on 
the ease with which a container can be dropped off at a loading point 
inland, loaded by the manufacturer, sealed, transported to a port, 
loaded onto a ship, transported across the sea, unloaded at another 
port, transported to the inland destination where the seal is broken by 
the recipient and the container unloaded. Container ships vary in size 
and are referred to by the number of containers they carry. The 
carrying capacity is ``20 foot equivalent units'' or ``TEU''s. The 20 
foot container was the prevalent size when container ships were being 
developed. These containers carry the vast majority of the U.S. trade. 
In 2000, there were over 17 million TEU's moved across U.S. docks. If 
domestic containers are counted, the figure is well over 20 million. 
Container ships have grown in size over the years in the drive for more 
efficiency. The ultimate recipients of the benefits of that efficiency 
are the public.
    Tankers are the primary source of transporting the crude oil the 
U.S. imports and provide a substantial amount of the transport needs to 
move products such as gasoline and heating oil. Crude oil is both U.S. 
produced and purchased from foreign sources. Our foreign purchased 
crude can be what is referred to in the business as long-haul or short-
haul crude. A short-haul, for example would be from Venezuela and a 
long haul would be, for example, from the Arabian Gulf. At present, the 
U.S. consumes a bit over 18 million barrels per day of crude oil. (The 
oil industry refers to oil in terms of barrels. A barrel is 42 gallons 
so the 18 million barrels per day consumption is over 756 million 
gallons.) Approximately 18 million barrels of this production is 
domestic. The remainder comes from a variety of sources including the 
Gulf. The latest figures show 2-3 million barrels, or 11 to 15 percent 
of our consumption from the Gulf. Most of the imported crude arrives on 
Very Large Crude Carriers (VLCCs). VLCCs are too large for U.S. ports 
so when they arrive, they are lightered so that they can enter a port 
or they may be completely lightered and not physically enter port.
    Lightering is the act of transferring oil to smaller tankers, which 
can enter the port at a shallower draft, for movement into the 
terminal. Both the VLCC and the smaller tanker are most often foreign 
flag. A common size VLCC holds around 2 million barrels so, on average, 
there are three VLCCs completely unloaded every day in or near our 
territorial waters. In actuality, since the lighterings can take a 
week, there is a larger number of VLCCs near our coast than the barrel 
delivery number would indicate. There is a considerable amount of oil 
moved from our Alaska fields amounting to nearly 1 million barrels per 
day. Since this is a domestic movement, U.S. flag tankers do that 
carriage. The movement of gasoline and heating oil along our coasts is 
performed by smaller size product tankers and ocean-going barges. These 
are also U.S. flag vessels.
    Other types of ships call at our ports such as bulk ships which 
most frequently call at our nation to load our bulk exports including 
grain, coal and fertilizer. Chemical tankers are a smaller tanker than 
their crude oil cousin and are specially designed to carry various 
chemicals in bulk.
    The ships carrying our trade are in the main foreign flagged. From 
the time trade began, ships have been registered in a particular 
nation. When registered, the ship then flies the flag of that nation at 
its stern. This told the rest of the world what laws the ship was 
operating under relative to mortgage laws, seafarer rules and other 
national regulations. Not too many years ago, the nationality of the 
owner of the ship, the operator and the crew were the same. As it has 
developed, we must be aware that the reality today is that the 
beneficial owner may be one nationality, the operating company another 
nationality, the officers on board can be a mix of nationalities and 
the unlicensed crew still another mix. Throughout all the trade and 
logistic changes throughout the industry, there has been an increase in 
concern with safety and environmental protection and development of 
technology to protect the asset. The number of ship loss incidents has 
decreased dramatically in the past 25 years and the efficiency of the 
system has had an equally dramatic rise. This situation is the reality 
we work with today.

Ship Commerce
    As we look at ships in our ports and harbors, it will be helpful to 
understand the number of people involved and, from there, consider what 
responsibilities various parties have. A ship loads at one or a number 
of foreign ports and, whether on a strict schedule or otherwise, at 
some point, takes a departure from the final port and heads to the U.S. 
On board will be the cargo with proof of ownership and other 
documentation that is a part of the commercial world. The ship itself 
will have on board a number of documents issued by the flag state 
attesting to compliance with international requirements. Every seafarer 
on board, and the number will vary by ship type, will have a seaman's 
document issued by the nation of registry. As the ship approaches the 
U.S., it will send an arrival notice to the U.S. Coast Guard and will 
contact an agent or, if the company is large enough, a company 
employee, to make the arrangements to have a state licensed pilot meet 
the ship to bring it in, arrange for U.S. Customs Service clearance, 
quarantine inspections, Immigration and Naturalization Service 
clearance and handle vendors and suppliers of goods for the ship. After 
picking up the pilot at the entrance to the port or harbor, the ship 
enters under the direction of the pilot who has the capability of a 
direct link with the harbor communications system that is separate from 
the ship's communications gear although he will use the ship's gear in 
most instances. The speed of the ship at this point will vary according 
to circumstances as directed by the pilot although in very few 
instances will this approach the full speed capability of the ship. In 
many harbors, the movements will be monitored by the vessel traffic 
system which may be manned by government or private company personnel. 
As the ship nears the dock, tugs may be used to assist. Once along 
side, the activity of clearance begins.
    What is occurring now?

Present Actions
    We see two aspects for concern relative to ships: problems 
emanating from within the vessel and outside actions directed at the 
ship. Although ship operators have more control over the first, we have 
comments on the roles of various participants involved in our ship 
operations.

  <bullet> Ship operators should be aware of the potential for use of 
        the ship as a mechanism of terrorist activity and take 
        appropriate safeguards in foreign ports particularly the last 
        foreign port of call and limiting access to personnel with 
        ship's business. The operator should take special care in 
        reviewing the seafarer documents of newly hired crew. At the 
        dock in the U.S., or at anchor, the ship should maintain a 
        watch at the waterside and report questionable activity to the 
        Coast Guard. The master should limit access to the ship by 
        personnel allowing only those who have business with the ship.

  <bullet> Ship operators should comply with the U.S. Coast Guard's 
        request that a crew list and a list of other persons on board 
        be transmitted to the Coast Guard at least 96 hours before 
        arrival at the U.S. (The current regulation, now under review 
        for change, has a 24 hour timeframe.)

  <bullet> American pilots should ensure that masters are fully aware 
        of the intended track of the ship. The pilot should also 
        consider maintaining separate communications with responsible 
        shore personnel.

  <bullet> Where VTS is presently operating, the VTS controllers should 
        be vigilant about traffic being monitored/controlled and other 
        traffic nearby.

  <bullet> Agents, who are usually American companies, should review 
        ship's documents closely for non-conformities and resolve 
        issues prior to ship arrival.

  <bullet> Ports/terminals should limit access to their facilities to 
        only those persons having business with the facility and who 
        can adequately identify themselves with photo identification. 
        They should cooperate with the Master in limiting access to the 
        ship. Ports/terminals and ships should agree on methods to 
        accommodate crew changes and visits by vendors to chandler the 
        ship or effect necessary repairs.

  <bullet> Lightering--We understand the lightering community has 
        initiated some additional steps including adding a deck watch, 
        exercising the piracy part of the ship's plan, keeping the 
        radar active, more frequent patrols of the operator by small 
        boat and maintaining communications with the Coast Guard.

  <bullet> We are working with various government agencies and are 
        encouraged with the cooperation among them. Last week, we 
        addressed a problem and were able to talk directly to Customs 
        and INS as the agencies had placed personnel in each other's 
        offices. This coordination must continue as nationwide 
        uniformity is necessary for the maritime industry to operate 
        efficiently and safely. The Coast Guard, in addition to working 
        with other federal agencies, should work with state and local 
        governments and public and private terminals to ensure that 
        regulations and requirements are uniform nationwide.

    Mr. Chairman and Committee members, much of the above is 
maintaining a heightened awareness of the circumstances and ensuring 
that communication links are open and accessible. Some operations, such 
as a marine terminal at a refinery, may have additional safeguards. In 
any port/ship interface, there is a need for the knowledgeable persons 
to communicate with each other. We believe this is taking place at oil 
terminals.
    In closing, we must make our industry secure and we must continue 
to operate. These goals are not incompatible.
    This concludes by testimony. I would be pleased to answer any 
questions.

    Senator Breaux. Thank you, gentlemen.
    Mr. Warrington, let us start with you.
    Senator Breaux. Mr. Warrington, you may have heard my 
questions in the beginning to Admiral Underwood with regard to 
the hypothetical I outlined. If someone leaving where we are 
today have to roll a large suitcase over to Union Station, 
purchase a ticket on an electronic ticket machine, and bring 
that luggage loaded with explosives onto an Amtrak passenger 
train, and then after placing it on the train, step off right 
before the train departs and have the unthinkable happen 
somewhere between here and New York, or whatever.
    What steps have been taken to assure this is not a 
potential threat, or is it possible to guarantee that it never 
would be? What is different today than it was September 10 with 
regard to that type of a scenario, if anything?
    Mr. Warrington. Let me talk about all the checked baggage 
and carry-on baggage issues. First of all, the package which we 
have put together significantly increases both security, police 
presence, and technology and surveillance at all of our checked 
baggage facilities across the system. That includes the 
acquisition of hand-held explosive detection devices. This 
package includes the acquisition of 1,000 of those units at 
$4,000 apiece, along with X-ray capability at all of our 
baggage facilities around the country.
    In addition, those facilities and all of our mail and 
express facilities around the system will be patrolled with 
bomb-sniffing dogs. Across this system today we have eight 
dogs. This package includes the acquisition of 19 additional 
dogs and handlers for deployment across the system.
    Senator Breaux. Let me interrupt you on that point. Between 
here and New York, obviously you have a lot of stops, and a lot 
of people coming on and getting off. Is the concept to have 
baggage inspected at each stop where people come onto the 
train?
    Mr. Warrington. There is very little checked baggage, 
virtually no checked baggage on the Northeast Corridor itself. 
Most of it is carry-on baggage, and as Senator Cleland 
mentioned earlier, we have been engaged, prior to this 
incident, in discussions with the FAA about technology 
transference of on-board explosive detection devices and other 
hand-held devices that could be immediately installed in our 
equipment.
    The technology is not quite proven, but we believe, and we 
have included in this package that we could and should move 
forward on that front. That is one of the most important things 
I think we need to do in order to deal with the concern that 
you raised this morning.
    Senator Breaux. Do you know of any other passenger train 
systems in other parts of the world which have a system where 
carry-on baggage is inspected?
    Mr. Warrington. There is a much bigger set of policy issues 
here as a matter of national transit and transportation 
security. Mr. Chairman, this has to do with the evolution over 
decades of encouraging the design of facilities and the 
operation of this entire transit system as an integrated mass 
transportation system. Inherent in that design, is facilitating 
the free flow of people on and off and to and from the entire 
network.
    In Penn Station, New York, for example, Amtrak carries 
30,000 passengers a day, but the Long Island Railroad and New 
Jersey Transit feed another 300,000 passengers through that 
facility. In addition there are transfers going on with tens of 
thousands of New York City Transit Authority subway passengers.
    As a practical matter, the ability to gate, screen, metal-
detect or technologically screen every package, suitcase, 
briefcase, and piece of luggage in an open facility like that, 
as a practical matter does not exist. If you look across the 
world, on all of the transit and high speed systems, including 
those in Israel, Germany and France, other than the Chunnel 
system between Paris and London, it is a very closed system for 
a whole host of reasons. The basic systems are open. There are 
varying degrees of either ad hoc or spot-checking, but it is 
very difficult to close the system.
    If Amtrak were to choose to close the entire system, one of 
the difficulties we would confront is access by literally 
thousands of commuter trains and commuter customers with 
briefcases using the Amtrak system and in those Amtrak 
terminals, including the Metro system right here in Washington 
which feeds into Washington Union Station.
    We have had discussions with the American Public Transit 
Association. In fact, we talked about this past Saturday night. 
They have put together a very important internal task force 
across the transit industry, and they have invited us to 
participate to deal with this important question.
    Senator Breaux. Well, I guess what you are saying is that 
it is almost physically and humanly impossible to operate a 
closed system as you described it for passenger rail systems in 
this country.
    Mr. Warrington. I think that is the case, but there are a 
lot of things we could do and that we are doing today. With the 
package we have proposed, we believe it significantly minimizes 
the risk and the vulnerability about access of undesirables or 
undesirable packages or baggage on board the Amtrak system.
    Senator Breaux. Thank you.
    Mr. Hamberger, we are talking about federalizing the air 
traffic security system, inspection and security at airports, 
inspection of passengers boarding the airliners, and all 
departures in the United States.
    The railroads are unique in the sense that their security 
has been the responsibility of the owners and operators of the 
rail system. Should that continue? What is the proper role of 
federal oversight? I mean, I think a lot of people are going to 
be saying, look, we are concerned about the railroads, and for 
them to say, well, we are doing it, do not worry about it, 
there wants to be a degree of knowledge that there is someone 
supervising what is being done. Can you comment on that?
    Mr. Hamberger. Yes, sir. I think where we need to head 
would be to reach a protocol with the FRA or the Department of 
Transportation Security Office, or whatever would be the proper 
federal participant, that would say that when we get to certain 
levels of threats, however those would be defined, DEFCON 1 or 
2, 3, 4, however they would go up, that there would be specific 
actions that the industry would take, that posting guards at a 
tunnel or bridge might be appropriate at one level of threat, 
but not in others.
    So as the threat level increases, as the specificity and 
credibility of the threat increases, then the response would 
increase, and that is something that I think we need to be 
working toward with Admiral Underwood's Office to come up with 
a protocol that addresses the threat and has a proper federal 
role in it, but yet leaves the responsibility of implementing 
it in the private sector.
    Senator Breaux. Senator Hollings and I were talking about 
track interruptions, and his concern, I think, was how do you 
know when a track has been disrupted along the route. There is 
an electronic monitoring system, is there not?
    Mr. Hamberger. Well, there is and there is not. There is an 
electronic signalling system, where there is an electric 
current that runs up one rail and comes back the other and 
completes the circuit, so that if there is a break in the rail 
it is detectable. There are many miles of track, generally in 
unsettled areas, where there is not a signalling system in 
place, what they call dark territory.
    We are working right now at TTCI in Pueblo, Colorado on a 
fiber optic cable that could be strung along the rail all over 
the country that would detect even in dark areas if there is a 
rail break, but in urban areas, where a lot of the traffic is 
occurring, there is the electric system.
    Senator Breaux. Is that system along the Amtrak tracks?
    Mr. Warrington. Mr. Chairman. First of all, in the 
Northeast Corridor we have a whole host of safeguards and 
protections built into the system, both the electrical system 
and the signal system, to stop a train literally in its tracks 
if it is a rogue train. That includes a whole number of items 
that I would rather not discuss here publicly, but we certainly 
do have that capability.
    You should be aware also that every passenger train that we 
run across this system, every car has an emergency brake 
application, so a conductor in communication with an engineer 
that is in any kind of difficulty has the ability in every car 
of that train to immediately apply an emergency application.
    In addition, on the Northeast Corridor we control remotely 
every signal and every switch that is operated on that 
railroad. The engineer does not choose his own route and 
remotely from a location in either Boston or New York or 
Philadelphia our power dispatchers and our trained dispatchers 
can display a slow approach, an approach or stop signal at any 
time that requires a train to come into conformance. If that 
train gets beyond that stop signal, the emergency braking 
system will automatically be triggered.
    Senator Breaux. Thank you.
    Mr. Crye, let us talk a little bit about ships, and 
passengers on board ships. Obviously, the ships that ply the 
seas, many of which originate in U.S. ports, carry literally 
thousands and thousands of passengers on board the ships, and I 
was pleased to hear the amount of an inspection that is now 
being done on the passengers that are boarding.
    I have somewhat of a concern about the crew of the ships. 
Most of the crews, because they are foreign vessels, are 
foreign crew members, not citizens of the United States. How do 
you secure the fact that these foreign sailors and crew members 
are not suspected terrorists or in fact they are who they say 
they are, that they originate from where they say they are 
coming from? Simply, how do you go about security with regard 
to the crew members, which I take it are sometimes as large as 
the number of passengers on the ships themselves?
    Mr. Crye. Sir, that is a several-faceted question. Let me 
try to take each issue one by one. Number one, in the process 
of hiring for crew members for the membership of the 
International Council of Cruise Lines, we generally hire 
through recognized manning agencies. The recognized manning 
agencies are those that have been certified in many cases in 
compliance with ISO 9000, or who have a history of providing 
quality personnel.
    There is a background check, or there are credential checks 
for criminal records, in local jurisdictions, and they also 
have to get U.S. visas in order to be able to enter the United 
States. The visa application process requires the certification 
of the individual that they are who they say they are, and that 
their background has been checked within the means of the local 
communities.
    The cruise industry also has a practice of hiring people 
that have a tradition of hospitality, and a tradition of sea-
going service. Many times the cruise industry has 
multigenerational families that have hired on and worked for 
the industry.
    The lists of personnel on board the vessels, not only the 
passengers but the crew, are provided to the INS and to 
Customs, and now, in addition, it appears the Coast Guard wants 
all of those lists during and prior to the embarkation, or 
prior to the return of a ship to the United States port, and so 
we are providing those lists sometimes to three or four 
different agencies in the process of the vessel leaving a 
United States port or coming back to a United States port.
    The INS is sharing a do-not-depart or prevent-departure 
list with the cruise industry, and we are checking the list of 
passengers and crew against those names, and we are also 
certifying back to the INS any people that have a name that 
appears to be questionable, and in addition, we provide them 
with a list of all the passengers and crew that are on board, 
they are checking those names also.
    Senator Breaux. Do you know, Mr. Crye, if Panama's maritime 
authority is one of the groups that supply employees for the 
cruise industry?
    Mr. Crye. The maritime authority?
    Senator Breaux. Yes, the AMP.
    Mr. Crye. I do not know, sir.
    Senator Breaux. The reason I ask is because an 
investigation into the corruption of Panama's maritime 
authority--I am reading from a document--in April of this year 
revealed the country is employing up to 1,000 unqualified 
sailors who are working under false documents. The scandal was 
uncovered when an official paid $4,500 for a Panamanian first 
officer's license, despite having absolutely no qualifications 
or any shipping experience.
    The reason I raise this is because of the importance of 
knowing? You are hiring mostly foreign crew members. I mean, if 
you are hiring them from Panama's maritime authority you do not 
know who they are.
    Mr. Crye. Mr. Chairman, I would tell you that we also had 
an incident in the United States very similar to that, where 
there were some documents that issued with United States 
credentials, so unlawful acts can occur anywhere, but I can 
tell you that my understanding is that the Government of Panama 
has undertaken a wide-scale investigation to determine that 
everyone that they have issued documents to----
    Senator Breaux. It sounds like the investigation found out 
they have got one huge problem.
    Mr. Crye. Those types of issues you have several different 
means of being able to evaluate the crew members and who they 
are. You also have classifications----
    Senator Breaux. Is the ship checked beyond the fact that 
they have a sailor who wants to work on their ship who has a 
Panamanian work permit? I mean, do you not just accept that 
permit? You do not do any real checking further than that, do 
you?
    Mr. Crye. There is a real difference between officers' 
credentials and crew members' credentials, number one. The 
officers on board the ICCL member vessels are generally either 
Norwegian or U.K. Dutch or Greek or Italian. They may obtain an 
alternate licensure through a Government such as Panama, but 
these countries are our allies, the deck and engine officers 
are hired through the countries that have very strong national 
traditions.
    Senator Breaux. For the officers and engineers that run the 
ship, I understand that, but I am concerned about the thousands 
of individuals who work on the ship in a nonofficer, 
nonengineer capacity. How do we verify--not to be overly 
critical, but how do you verify who in the heck thousands of 
foreign sailors are carrying these passengers?
    Mr. Crye. Many of the cruise lines have training schools as 
well, and they hire through recognized manning agencies. When 
an individual comes to get a United States visa to work on 
board a cruise ship to be able to come to this country, they 
must certify they are who they say they are and show 
identification.
    Senator Breaux. I am sure they are always certified that 
whatever it takes to get on the ship.
    Mr. Crye. There is also--as you know, no system is 
completely fail-safe, and I think that the practices and 
procedures that the cruise industry employs has various 
mechanisms to determine and to ensure that the people are who 
they say they are.
    Senator Breaux. Well, I really would like to further 
explore that. Now is not the time to do it, but there has got 
to be some kind of verification of the name in the passport and 
the fact that they are not on some suspected list of potential 
terrorists, or what-have-you, because that is an awful lot of 
people on each ship that we ought to be concerned about who 
they are.
    Mr. Crye. Senator, through employment records you have a 
history of an individual, whether they are reliable employees, 
whether they are doing the job that they are supposed to be 
doing, there are 100 percent checks that the people who are on 
board the vessel are who they say they are, so I believe we 
have taken a lot of measures to ensure the identity of the 
passengers as well as the crew on board the vessels.
    Senator Breaux. Thank you.
    Mr. Cox, what is the biggest threat to the carriers that 
you have to deal with? I mean, if you have got an LNG vessel or 
the VLCC crude carrier, is the biggest threat at sea, is the 
biggest threat in the harbor, or is the biggest threat an 
internal threat or is it an external threat to the security of 
that ship?
    Mr. Cox. Mr. Chairman, it is a personal opinion of mine--
CSA's Committee is meeting next week, and we will put together 
responses to these types of questions, but listening to what 
was testified to today, and the questions from your colleagues 
on the Subcommittee, I think that from a vessel standpoint what 
we should worry about in the United States perhaps as the first 
question is would a vessel be used to interdict the 
transportation infrastructure of the United States? Could a 
ship be used to block Long Beach Harbor? Could it be used to 
block the Mississippi River or the Port of Houston?
    I think that there are instances in the past where this has 
happened. From a commercial standpoint there has actually been 
a legitimate problem on board a ship that caused it to block 
the channel. A recent occurrence just this year was in the Port 
of Lake Charles, where a ship sunk and actually blocked access 
to St. Charles for a number of months.
    Senator Breaux. Tell me about it!
    Mr. Cox. I did not mean to hit home on that too much, but 
it is certainly an indication of what can happen, but I think 
from the standpoint of terrorist activity, that is an 
interdiction of transportation mechanism, and therefore an 
attack on our economic structure.
    Senator Breaux. So in the harbor activities, it is 
potentially vulnerable, as opposed to being in the open sea?
    Mr. Cox. I think if someone were to take some action with 
respect to a vessel, that harbor entrances and the way into the 
harbor would be where the action could be taken which would 
truly damage the transportation in that particular port.
    Senator Breaux. Are you satisfied with the Coast Guard's 
assistance in keeping nonapproved vessels away from your 
carriers while they are either in the harbor or exiting or 
coming into a harbor? That is a problem where our military 
vessel was in the harbor and they just ran a boat loaded with 
dynamite right into it--that was a military vessel--and killed 
a number of sailors, but are we protected enough, and are they 
off-limits for other vessels coming around a supertanker or an 
LNG carrier, for instance?
    Mr. Cox. Well, certainly I think there are two levels of 
protection there that we have to key in on. One is the 
vigilance of the vessel itself, and I must admit that on 
September 10 we probably would not have thought of many of 
these questions, but ships have those questions now, and we 
certainly think they ought to be vigilant and report any 
activity close to their vessel which they feel looks anywhere 
near questionable.
    The Coast Guard has instituted some port security measures 
and patrolling the harbors. I cannot comment on the efficacy of 
that. They are certainly operating with a knowledge base on 
security that we in the commercial industry do not possess.
    At the same time, I am concerned that the Coast Guard is 
taking those assets from the other things they are supposed to 
be doing, and if we do not think about how we have to plus-up 
the Coast Guard to perform these actions, then we are going to 
lose the coverage in some other areas.
    Mr. Chairman, if I might talk about the new issue that you 
were talking with my colleague Mr. Crye about, we have those 
same concerns, of course.
    Senator Breaux. You have much smaller crews.
    Mr. Cox. But we have the exact same concerns, and that is 
the person presenting themselves to us as a qualified crew 
member indeed qualified, and today we have an additional 
question, is that person presenting themselves as a sailor when 
they are not, they are actually something else?
    I think we have too--the reason I wanted to say something 
is we have another mechanism check available to us, and that is 
that the officers and the unlicensed crew on a cargo ship all 
have to have documentation from the flag state, that is, the 
country whose flag is on the stern of that ship that they are 
qualified seafarers, and the standards of training 
certification and watch-keeping international treaty will come 
into force in February of 2002 in a new, more direct way with 
respect to the qualification of those people.
    The United States certainly has the opportunity and can 
probably do so today, to check back with those flag states with 
our list of crew members, so not only are we using the crew 
lists and getting it over to the FBI and INS and Customs, we 
are taking a look and seeing if we are getting some truly bad 
actors coming in on ships, but we have an opportunity to double 
check with the flag states.
    Senator Breaux. Well, be careful when you are dealing with 
Panamanians.
    Mr. Cox. Mr. Chairman, I think that every shipowner has to 
be extremely concerned with fraudulent certificates, and I 
would agree with you that if someone has shown that there are 
some improprieties with regard to their processes, then I think 
it is incumbent upon them to prove that their processes have 
been patrolled.
    Senator Breaux. Senator Smith.
    Senator Smith. Mr. Cox, to follow up on Senator Breaux's 
question, the report he read with respect to corruption and the 
operation of the Panama Canal, has that affected your ability 
to operate through that passageway?
    Mr. Cox. Senator, I think the safety and security of the 
Panama Canal of course now is under the control of the 
Panamanian Government. I think from a U.S. vessel's standpoint 
there is substantially less usage of the Canal than perhaps in 
the past, mainly because the ships that carry international 
trade have gotten so large that they cannot pass through the 
canal, so virtually--I should not say all, but much of our 
trade is coming in on very large container ships which come 
into the West Coast, and if there is a necessity to move those 
containers, then they are probably done by train.
    On the tanker side, the tankers are certainly much too 
large to go through the Canal, and because of the structure of 
oil distribution within the United States, fortunately we have 
an Alaska, where we can serve our West Coast, and we have 
importation of foreign oil into the Gulf of Mexico and on the 
East Coast, so there is very little through the Panama Canal.
    Senator Smith. That would not be true of the cruise ship 
business though, would it, Mr. Crye?
    Mr. Crye. No, sir. We transit the canal quite a bit, 
seasonally more than anything else in the fall and in the 
spring. Our experience with the Panama Canal is that it is 
being operated very efficiently, and they are making 
infrastructure improvements.
    I think Senator Breaux's question was with respect to 
licensure, a licensure issue, or a documentation issue for 
certain documents.
    Senator Smith. But it did highlight some corruption, and I 
wonder if it affects how you have to operate there.
    Mr. Crye. Any time you operate internationally, any time 
you operate with various Governments you must make sure that 
you are being prudent and that you are taking every measure to 
safeguard your passengers and your crew, so it is incumbent on 
the vessel owners to make sure that their ships are being 
operated safely.
    Senator Smith. Thank you.
    Mr. Warrington, you are requesting over $3 billion of 
emergency needs for Amtrak, and I wonder how many items that 
involves? How many emergency needs are there within this 
request? Is it hundreds, or is it just a few?
    Mr. Warrington. There are literally hundreds of elements in 
this package, and I could summarize them in a couple of ways. 
The first is effectively dealing with the tunnel complexes, 
particularly New York, Baltimore and Washington. The largest 
one and the most longstanding problem area are the six tunnels 
leading under the Hudson and East Rivers. There are four 
tunnels under the East River, two tunnels under the Hudson 
River, and the entire complex itself at ground level, which 
requires ventilation standpipes and the like.
    Senator Smith. Is it fair to say a third of your request is 
for these?
    Mr. Warrington. Just for the tunnels, that is right.
    Senator Smith. How long have these been identified as a 
problem, a security problem?
    Mr. Warrington. Frankly, for decades.
    Senator Smith. And has anything been done to address this 
nearly $1 billion need?
    Mr. Warrington. Frankly, I will tell you, Senator, when I 
was with New Jersey Transit in the mid 1980's, the tunnel into 
and out of New York's Penn Station were identified as a set of 
issues that needed to be dealt with. The difficulty has always 
been access to capital. Unlike equipment, you cannot finance 
these types of investments.
    Senator Smith. Does the $1 billion you need for the tunnels 
represent your 20 percent usage of these tunnels?
    Mr. Warrington. No. As the owner of the asset and in the 
end the responsible party and the liable party for that asset 
and its operations, this dollar amount equals the complete 
value of the investment.
    Senator Smith. I guess I am uncertain, then, why we are not 
sharing some of this cost with other railroads, that use these 
tunnels, specifically Long Island and New Jersey Transit.
    Mr. Warrington. Historically we have cost shared with the 
Long Island Railroad, not with New Jersey Transit. There may be 
some room there for that kind of discussion, but frankly----
    Senator Smith. But your use is only 20 percent.
    Mr. Warrington. We use about 20 percent of the existing 
capacity.
    Senator Smith. But the taxpayers are asked to pay 100 
percent.
    Mr. Warrington. We manage this entire asset, Senator, this 
entire asset, as a matter of national interest, across the 
entire region, from Washington to Boston.
    Senator Smith. I am not saying it is not a national 
problem, but I am wondering, as an Oregon Senator, is there 
anything in this $3 billion for Oregon?
    Mr. Warrington. Absolutely. Let me try to deal with this 
question.
    Senator Smith. In the spirit of Senator Hutchison's earlier 
questions, look, I want to help, but I also know that you are 
using 20 percent of these tunnels, and we are being asked to 
pay for 100 percent, and it is all Northeast Corridor, and I am 
all for the Northeast Corridor. I just wonder if there is 
anything in this for the rest of the nation.
    Mr. Warrington. And we should do a better job of breaking 
that out for all Members of the Committee, because a 
significant portion of the security investment extends across 
the entire system. I will tell you that included within this 
package is about $500 million for equipment overhauls and 
acquisition of new equipment. Now, we have not made the 
decision about where that equipment should be acquired for. It 
is conceivable some of it would be on the Northeast Corridor. 
It is conceivable some of it would be, for example on the 
Cascades Corridor out West. Some of it could be based upon our 
booking demand right now for acquisition of new long distance 
sleeper cars and dormitory-type cars.
    That decision about which equipment, when and where, is 
premature to make right now. What this package includes enables 
us to have the flexibility to be able to move rapidly when we 
understand where this market is going and where the demand is 
clearly sustained.
    I will tell you our most extraordinary growth corridor 
across the system, as you well know, is in Oregon and 
Washington, in our Cascades Corridor. We have a terrific 
partnership with BNSF and the states there.
    I will tell you as well, and I meant to mention this to 
Senator Hutchison, that on the Northeast Corridor 34 of our 134 
long distance Amtrak trains originate or end in Washington or 
New York, but are destined for points all around this country. 
They traverse the Northeast Corridor every day enroute to or 
from Chicago, Florida, and New Orleans.
    So I will tell you that while the physical investment 
occurs in the Northeast Corridor and in a complex like Penn 
Station, New York, the benefit associated with the security, 
the benefit associated with the safety, and the benefit 
associated with the capacity and reliability extends far beyond 
that Northeast Corridor operation to many of our long distance 
trains across this network.
    Senator Smith. But if September 11 had not occurred, what 
would have been done about these emergencies?
    Mr. Warrington. I would have been muddling through 
inadequately, and what we have been doing on these tunnels is 
collectively over the past 5 or 6 years $161 million, so 
frankly we have elevated this as a matter of policy discussion 
every year. In fact, Chairman Wolf on the House Appropriations 
Committee last year, and Ken Mead, the U.S. DOT Inspector 
General, have elevated this as a major concern. But Senator, 
frankly, we have never been capitalized to do it right.
    Senator Smith. What do you think is the life of these 
assets if we do not respond to this emergency, the life of the 
tunnels?
    Mr. Warrington. Well, the tunnels themselves are 
structurally sound and secure. The difficulty here is that in 
the event of an incident, whether it is sabotage, terrorism, or 
other related incident like an equipment fire, egress, access, 
lighting, communication, and ventilation of smoke is difficult, 
if not impossible to fully secure today.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Breaux. Gentlemen, thank you. Thank you, Senator. 
Thank you very much for being on our panel. There may be some 
followup which we would submit from Members who are not here, 
but with that, this will conclude this hearing, and thank you 
for being with us.
    The Subcommittee stands adjourned.
    [Whereupon, at 12:45 p.m., the Subcommittee adjourned.]

                                Appendix

     Prepared Statement of Edmund B. Welch, Legislative Director, 
                      Passenger Vessel Association

    The Passenger Vessel Association the national trade association 
representing U.S.-flag passenger vessels of all types--submits this 
statement for the record to the Senate Committee on Commerce, Science 
and Transportation on the subject on maritime security.
    Security of terminals, vessels, and passengers and vehicles on 
board has always been of concern to the U.S.-flag passenger vessel 
fleet, but the terrorist attacks of September 11 have prompted our 
Association and its members to examine this problem as never before.

U.S. routes, U.S. crew, U.S. owners
    Virtually all of the crew members of U.S.-flag passenger vessels 
are U.S. citizens. Section 8103(b) of Title 46, United States Code, 
requires that a seaman aboard a U.S.-flag vessel must be a U.S. citizen 
or (to a limited extent) an alien lawfully admitted for permanent 
residence. Section 8103(a) of Title 46 requires that the master, chief 
engineer, radio officer, and officer in charge of a deck watch or 
engineering watch must all be U.S. citizens.
    Nearly every U.S.-flag passenger vessel is eligible to participate 
in the U.S. coastwise trades. As a result, the owner must be a U.S. 
citizen. If the owner is a corporation, then 75 percent of the stock 
must be held by U.S. citizens.
    The vast majority of itineraries of U.S.-flag passenger vessels 
occur entirely in domestic waters. Only a very few vessels sail on 
international voyages, nearly all to Canada or Mexico.
    Finally, a large percentage of vessels in the domestic fleet have a 
``single point'' of departure and arrival (that is, the vessel departs 
and arrives at the same facility, without intervening stops). This 
creates a much easier security environment than if a vessel travels 
from one port to one or more additional ports.
    Thus, the first line of security for the U.S.--flag passenger 
vessel industry is the fact that the vessels are (U.S.-manned and U.S.-
owned and that they sail predominantly within U.S. navigable waters.
Diversity within the U.S.-Flag Passenger Fleet
    Within the U.S.-flag passenger fleet, there exists a wide range of 
vessel types, sizes, and functions.
    Overnight cruise ships range from large vessels accommodating 1,000 
or more passengers in Hawaii to smaller vessels carrying from 50 to 225 
passengers in Alaska, the Pacific Northwest, the Atlantic Coast, the 
Great Lakes, and on inland rivers.
    Ferries of all sizes serve urban areas, remote islands, and river 
crossings. The ferry vessel may take from only a few minutes to more 
than a day to traverse its route. The vessel may accommodate passengers 
only or both passengers and vehicles.
    Hundreds of vessels offer sightseeing, excursion, or dinner 
cruises. Windjammers attract passengers eager to experience a 
traditional sailing vessel. Numerous operators offer whalewatching 
excursions or other types of eco-tourism. Gaming vessels, particularly 
on inland lakes and rivers, attract customers to this form of 
recreation.
    In some instances, a vessel may engage in more than one function. 
For example, a vessel may operate as a ferry during the work week and 
offer whalewatching cruises on the weekend.
    This staggering diversity within the U.S.-flag passenger fleet 
means that there can be no one-size-fits-all approach to security. Nor 
is it correct to assume that measures that may be necessary for a 
foreign-flagged, foreign-crewed cruise ship carrying thousands of 
passengers departing a U.S. port for foreign destinations are 
appropriate for U.S. flagged passenger vessels of different types 
routes and sizes.

What We Are Doing
    Immediately after the terrorist attacks, the Passenger Vessel 
Association took steps to urge and assist its members to evaluate and 
improve security in their operations.
    PVA had previously provided to its members a document entitled PVA 
Bomb Threat Guidelines advising a vessel operator how to respond to a 
bomb threat. By electronic communication, PVA reminded members about 
this tool. To ensure that all members had it, we distributed it again. 
PVA told the Coast Guard that we would make this document available to 
any passenger vessel operator, not just to PVA members.
    On September 12, PVA arranged for an initial conference call on 
security matters between Coast Guard Headquarters officials, PVA staff, 
and individuals representing approximately two dozen PVA companies. The 
call enabled the Coast Guard to communicate its concerns about security 
in passenger vessel operations and allowed vessel operators nationwide 
to share their security questions and procedures with one another and 
the Coast Guard.
    Subsequently, Coast Guard officials and PVA staff have been 
conducting regular conference calls to review the implementation of 
security measures within the industry and to address any problem areas 
that may arise in specific locations.
    PVA has distributed three Special Member Updates on Security 
electronically and by fax, the first on September 12. They emphasize 
steps PVA operators should consider to enhance security. Copies are 
enclosed as a part of this statement.
    Each year, PVA conducts regional meetings. This year, PVA will 
include a security seminar and discussion at each of its five regional 
meetings. The first of these meetings, the Western Region, conducted 
its meeting on September 28-29 in Portland, Oregon with over 100 
attendees. The other four meetings, each with a security presentation, 
will occur between now and the end of November.
    PVA intends to take the information and knowledge obtained from its 
conference calls with the Coast Guard and from the security sessions at 
the five regional meetings and develop a PVA Security Guidelines 
document (similar to the PVA Bomb Threat Guidelines).
    The program at PVA's Annual Convention in February 2002 in Biloxi 
will feature one or more presentations on security matters.

Legislation
    PVA notes that S. 1214, the Port and Maritime Security Act, 
authorizes loan guarantees and grants to enhance security at seaports. 
Many PVA members operate from seaports within the purview of S. 1214, 
and many of them have their own terminal and shoreside facilities. We 
believe that S. 1214 would permit these members to seek such loan 
guarantees and grants to enhance their security by the installation of 
fencing, lighting, alarms, cameras, scanners, and the like. We 
recommend that the Senate confirm this understanding as it develops its 
legislative history on the bill.

Special Circumstances
    In at least three metropolitan areas--New York, Baltimore, and 
Washington, D.C.--PVA operators have incurred substantial economic 
losses due to Coast Guard-imposed security measures. These losses flow 
directly from Coast Guard orders. In each of these jurisdictions, the 
Captain of the Port closed the waterways to all vessel traffic for a 
period of as much as a week. Thus, operators of dinner cruises, 
sightseeing vessels, and others were prevented from conducting their 
business by government order. PVA does not take issue with the action 
of the Coast Guard, but we believe that these operators should be 
compensated for their losses. These operators are in exactly the same 
situation as the commercial airline companies; a specific government 
order prevented them from doing business. We ask that Congress 
acknowledge that these private entities--several of them small 
businesses--should not have to absorb these costs that were incurred as 
a direct result of a government order for a public benefit.

Conclusion
  <bullet> The Passenger Vessel Association continues to act 
        affirmatively in cooperate with the Coast Guard to ensure the 
        highest level of security for U.S.-flag passenger vessels and 
        their terminals.

  <bullet> Our industry's characteristics of U.S. owners, U.S.-citizen 
        crews, and U.S. routes is a good foundation on which additional 
        security measures may be taken.

  <bullet> Because of the diversity of vessel types, sizes, and uses 
        within this industry, there can be no one-size-fits-all 
        application of security measures.

  <bullet> We hope that Congress will approve Seaport Security 
        legislation that makes domestic passenger vessel operators 
        eligible for loan guarantees and grants to enhance security and 
        will also recognize that compensation is appropriate for U.S.-
        flag passenger vessel operators who could not operate their 
        businesses because of Coast Guard-ordered closures of specific 
        waterways.

    Edmund B. Welch
    Legislative Director
    Passenger Vessel Association
    1600 Wilson Boulevard, Suite 1000A
    Arlington, VA 22209
                                 ______
                                 
    Friday, September 28, 2001
Special PVA Member Update
    Published Biweekly by Passenger Vessel Association
    1600 Wilson Blvd., Ste 1000A
    Arlington, VA 22209
    800-807-8360 Fax 703-807-0103
    www.passengervessel.com <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="68181e09281e0d1b1b0d040904040109060b0d460b0705">[email&#160;protected]</a>

PVA and Coast Guard Confer on Security
    On September 21, and again on the 24th, PVA staff conducted 
conference calls with the Coast Guard which included key Coast Guard 
officials from the Washington D.C. headquarters, the Atlantic Area 
command, and the Pacific Area command to discuss heightened security 
aboard U.S.-flag passenger vessels.
    These calls were very successful in that they established a solid 
communication channel for PVA and the Coast Guard to discuss current 
nationwide security issues and to demonstrate that PVA members are 
actively implementing appropriate heightened security measures aboard 
vessels and at terminals.
    Over the past several weeks, PVA members have expressed some 
concern that they have received mixed or confusing messages from 
Captains of the Port (COTP) regarding specific security initiatives in 
their ports has raised an alarm. It appeared that many Captains of the 
Port (COTP) around the country were receiving mixed signals or even 
misinterpreting the directives emanating from Coast Guard headquarters 
in Washington D.C. and the Area commands.
    The conference calls confirmed that the COTP's were being given 
wide latitude to assess imminent security threats and then to implement 
immediate security measures for passenger vessels in ports throughout 
the country. While COTP's were given this broad authority, confusion 
was created because, in some cases, the directives did not require or 
dictate any specific security measures.
    PVA pointed out that where there was early Coast Guard 
communication or consultation, PVA members felt that they were included 
in the decisions concerning heightened security and therefore, felt 
that the resulting Coast Guard security directives were for the most 
appropriate, effective and efficient. Where the Coast Guard acted 
unilaterally, many of the security directives increased security-
related activity but did very little in terms of actually improving 
security.
    PVA reinforced its position that early consultation is appropriate 
and follow up communication between PVA and the Coast Guard is 
essential to ensure that the goal of thwarting potential terrorist acts 
is achieved. The Coast Guard agrees with this opinion.
    If you feel that the Coast Guard has imposed security measures that 
are inappropriate for your operation or that can be accomplished by 
other means, please notify your local Coast Guard COTP.
    Also, please contact PVA at 1-800-807-8360 if you have any 
security-related questions or need assistance of any kind.
    We wish to commend the PVA members throughout the country who are 
working hard to enhance security measures aboard their vessels and, in 
turn, contributing to the protection the traveling public and the 
nation's transportation infrastructure. PVA has stressed the need for 
the Federal Government to provide security training and other security 
resources to the passenger vessel industry if it wishes to adequately 
and effectively improve security.
    Photo ID checks, package inspection, manifests and employing armed 
guards are just a few of the measures that the Coast Guard has 
considered mandating. All of these measures could be appropriate in 
specific situations but they are not universal in their effectiveness 
or employability. Following are some examples:

  <bullet> Photo ID checks that have no security aspect required for 
        issuance provide no terrorism deterrent.

  <bullet> Presentation of IDs without reference to some list of 
        identified or suspected persons is also non-productive.

  <bullet> Examination of packages without trained personnel and some 
        description of material prohibited would seem to be without 
        purpose.

  <bullet> Lacking authority to prohibit or seize property would make 
        the examination of packages meaningless and potentially 
        confrontational.

  <bullet> Manifests are not practical in mass transit or any service 
        that relies on walk up or spontaneous decision customers.

  <bullet> The use of armed guards may introduce other safety issues 
        and focuses on response rather than prevention.

    A special seminar on security issues will be held this week during 
the PVA Western Region Meeting in Portland, Oregon, and similar 
sessions will be held at subsequent PVA region meeting this year. 
Information gathered from these interactive seminars will be used to 
develop a new training manual on security for member use.
    For a complete schedule and program/registration materials for all 
upcoming PVA region meetings, access the PVA web site: 
www.passengervessel.com, or call PVA at 1-800-807-8360.
                                 ______
                                 
    Friday, September 14, 2001
Special PVA Member Update
    Published Biweekly by Passenger Vessel Association
    1600 Wilson Blvd., Ste 1000A
    Arlington, VA 22209
    800-807-8360 Fax 703-807-0103
    www.passengervessel.com <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="671711062711021414020b060b0b0e060904024904080a">[email&#160;protected]</a>
PVA Members Heighten Security Measures
    In the aftermath of the terrorist attacks on the World Trade 
Center, the Pentagon, and U.S. airliners, security issues are of utmost 
concern to everyone, including the domestic passenger vessel industry.
    The Passenger Vessel Association is applying its resources to help 
its members meet the security challenges facing them. On Wednesday, 
September 12, PVA sent out a Special Member Update on security and 
followed that on Friday, September 14 with another Special Member 
Update to vessel members reminding them of the usefulness of the PVA 
Bomb Threat Guidelines. A member in New Jersey experienced an actual 
bomb threat the day after he received and reviewed the PVA Bomb Threat 
Guidelines. He reported that the document was invaluable in helping his 
people respond to the bomb threat. As a reminder, the PVA Bomb Threat 
Guidelines is found in your PVA Risk Management Manual (the blue 
manual), on the PVA web site: www.passenqervessel.com or you can 
contact PVA Headquarters at 1-800-807-8360 to request that a copy be 
sent to you by email or fax. The PVA Bomb Threat Guidelines is another 
membership benefit that was produced by PVA volunteers and staff and 
that is free to PVA members.

PVA/Coast Guard Conference Call on Vessel Security
    On September 12, over 20 individuals from PVA member companies 
participated in a conference call with staff of Coast Guard 
Headquarters in Washington, D.C., to ``compare notes'' as to what their 
companies were doing to respond to the need for increased security.

What You Can Do . . .
    The following checklist summarizes security issues discussed during 
the conference call. We strongly recommend that you refer to this 
outline in reviewing your own security measures.
Restricted Access to Pilot House
  <bullet> Only authorized employees should be permitted into the 
        pilothouse.

  <bullet> There should be signage posted at appropriate places 
        emphasizing that the pilothouse is off limits to passengers.

  <bullet> There should be a strong door and secure lock at the 
        pilothouse entrance.

  <bullet> The vessel operator should consider a policy of requiring 
        that the pilothouse door be locked while the vessel is underway 
        and/or at the dock.

Restricted Access to Engine Room
  <bullet> Only authorized employees should be permitted into the 
        engine room.

  <bullet> There should be signage posted at appropriate places 
        emphasizing that the engine room is off limits to passengers.

  <bullet> There should be a strong door and secure lock at the engine 
        room entrance.

  <bullet> The vessel operator should consider a policy of requiring 
        that the engine room house door be locked while the vessel is 
        underway and/or at the dock.

Communications Equipment
  <bullet> The vessel operator should regularly check the vessel's 
        radio and other communications equipment to ensure that it is 
        in working order.

  <bullet> The operator should consider the advisability of providing 
        the captain and the crew with one or more cell phones for 
        emergency communication.

  <bullet> There should be in the pilothouse a list of appropriate 
        phone numbers to be contacted in the event of an emergency 
        (owner, terminal, Coast Guard, harbormaster, police, fire 
        department, emergency health responder, etc.)

Access to Terminal and Landside Facilities
  <bullet> Secure fencing should surround the premises.

  <bullet> Public access should be directed through specified points.

  <bullet> The facilities should be locked when vessel operations are 
        not taking place.

  <bullet> The operator should evaluate the need for 24-hour security 
        measures, including (where appropriate) guards or watchmen, 
        security cameras, adequate lighting, and alarms.

  <bullet> Certain areas should be off limits to all but appropriate 
        employees, and measures should be taken to ensure such limited 
        access.

Identification of Passengers
  <bullet> The vessel operator should evaluate the need for requiring 
        passengers to display photo ID in their operation.
Inspection of Parcels, Baggage
  <bullet> The vessel operator should evaluate the need for either 
        spot-checking the contents of carry-on or checked baggage 
        (Note: Coast Guard officials in some ports are requiring either 
        spot-checks of baggage; in some locations, they are requiring 
        that all baggage and carry-on items be checked.

Inspection of Vessels
  <bullet> For car ferries, the operator should evaluate the need for 
        spot-checks or complete checks of vessels to be carried on 
        board.

Sweeps of Vessel and/or Terminal Facilities
  <bullet> The vessel operator should consider the need for personnel 
        to ``sweep'' the vessel for suspicious items prior to and after 
        each voyage. Similarly, the operator should evaluate the need 
        for regular ``sweeps'' of docks, terminals, fuel farms, etc.

Increase Presence of Local Law Enforcement Officials
  <bullet> The vessel operator may wish to request that local police 
        ``step up'' their patrols in the vicinity of landside 
        operations.

Review of Vessel Route
  <bullet> The vessel operator should review routes followed by the 
        vessel to determine what facilities or other infrastructure 
        along the way might be of special risk to the public if the 
        vessel were to strike them.

General Alertness
  <bullet> Every operator should evaluate security risks and exposure 
        and then review the company contingency plans. Take advantage 
        of resources such as the PVA Risk Guide found on the Coast 
        Guard's web site: www.uscq.mil/hg/q-m/risk (under 
        ``Activities'') or on PVA's web site: www.passengervessel.com.

  <bullet> The vessel operator should emphasize to all employees that 
        security is of high priority. All employees should be vigilant 
        for anything or anyone that arouses suspicion and should report 
        such observations to their superiors. The operator should 
        establish policies regarding the acceptance of packages from 
        those unfamiliar to the employees.

    If you have any questions, please contact PVA at 1-800-807-8360 or 
send an email to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4d4d2c5e4d2c1d7d7c1c8c5c8c8cdc5cac7c18ac7cbc98a">[email&#160;protected]</a>
                                 ______
                                 
    Wednesday, September 12, 2001

Special PVA Member Update
    Published Biweekly by Passenger Vessel Association
    1600 Wilson Blvd., Ste 1000A
    Arlington, VA 22209
    800-807-8360 Fax 703-807-0103
    www.passengervessel.com <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b1b1d0a2b1d0e18180e070a0707020a05080e45080406">[email&#160;protected]</a>

Important Message on Passenger Vessel Security
    The Passenger Vessel Association is sending this Special PVA Member 
Update regarding security concerns arising from yesterday's terrorist 
attacks. PVA is in direct contact with Coast Guard Headquarters in 
Washington, D.C. about efforts by the domestic passenger vessel 
industry to address security issues.
    U.S. Secretary of Transportation Norman Mineta has ordered that a 
heightened degree of security be put in place for all modes of 
transportation nationally, including marine transportation.
    Coast Guard Headquarters in Washington has instructed each Captain 
of the Port that he or she has discretionary authority to assume 
control of or direct vessel navigation in areas of their 
responsibility. Therefore, you may hear directly from your local 
Captain of the Port about any necessary instructions.
    Certain portions of the Code of Federal Regulations may provide 
guidance for vessel and terminal security. Title 33 CFR Section 120 
addresses security issues on certain passenger vessels over 100 gross 
tons, but it also may provide a useful reference for any passenger 
vessel operator. Title 33 CFR Section 128 addresses security 
regulations for marine terminals.

PVA recommends that each member company review:
  <bullet> PVA guideline entitled ``Bomb Threats''. This guideline is 
        located in your blue PVA Risk Management Manual. If you do not 
        have this, please contact PVA;

  <bullet> All of your company's contingency plans. For assistance in 
        writing one, please see the ``Contingency Planning Guide'', 
        again, located in your blue PVA Risk Management Manual;

  <bullet> Your company policy on ensuring Pilot House security;

  <bullet> Your company policy on ensuring engine room security for 
        both manned and unmanned engine rooms;

  <bullet> Your company's passenger boarding policy;

  <bullet> Your company's policy on loading passenger luggage, cargo, 
        and unattended or attended vehicles, and the passengers in 
        them;

  <bullet> Your company's policy on inspection of all docking 
        facilities. Please ensure that the vessel's docking or lay-up 
        area has an unobstructed view and cannot be approached by 
        unauthorized personnel;

  <bullet> Your vessels' communications and navigation equipment to 
        ensure that it is in proper working order.

    The Passenger Vessel Association recognizes that our nation is 
facing an extraordinary challenge. We will work closely with the Coast 
Guard to ensure that our vessels, passengers, harbors, and waterways 
are safe. If you have any questions, please contact us at 1-800-807-
8360 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="502026311026352323353c313c3c39313e33357e333f3d7e">[email&#160;protected]</a>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
